Audit Report




OIG-12-019
Audit of the United States Mint’s Fiscal Years 2011 and 2010
Financial Statements
December 5, 2011




Office of
Inspector General
Department of the Treasury
      The Mint strives to ensure that their documents are accessible;
to obtain a Section 508 compliant copy of the Mint’s 2011 Annual Report,
                          see the Mint’s website:

                        http://www.usmint.gov/


                               Also see:

       Web Accessibility and Section 508 Compliance policy page
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 5, 2011


            MEMORANDUM FOR RICHARD A. PETERSON, DEPUTY DIRECTOR
                           UNITED STATES MINT

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Audit of the United States Mint’s Fiscal Years 2011 and
                                   2010 Financial Statements


            I am pleased to transmit the attached audited United States Mint (Mint) financial
            statements for fiscal years 2011 and 2010. Under a contract monitored by the
            Office of Inspector General, KPMG LLP, an independent certified public accounting
            firm, performed an audit of the financial statements of the Mint as of
            September 30, 2011 and 2010 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP identified a control deficiency related to inventory
            that was considered a significant deficiency. This significant deficiency was not
            considered a material weakness. Further, KPMG LLP found no instances of
            reportable noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated December 2, 2011 discussing
            certain matters involving internal control over financial reporting and its operation
            that were identified during the audit but were not required to be included in the
            auditors’ reports. This letter will be transmitted separately.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated December 2, 2011, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audits at
(202) 927-5407.

Attachment
united states mint




             2011 annual report
                2011 September 11 national medal
 On the cover : The 2011 September 11 National Medal commemorates the 10th anniversary
 of the terrorist attacks on the United States. Surcharges from this two-year Congressionally
    mandated program are authorized to be paid to the National September 11 Memorial
 and Museum at the World Trade Center. One side of the silver medal features Lady Liberty
holding the Lamp of Remembrance. Behind her are beacons of light. Lady Liberty, the lamp
and the light symbolize loss, as well as the resilience and triumph of survivors. The other side
 of the medal depicts an eagle, symbolizing strength, against a backdrop of cascading water,
               symbolizing peace, serenity, healing, and the continuity of life.
                                      Richard A. Peterson
                                      United States Mint
                                      Deputy Director



deputy director’s letter
I am pleased to present the United States Mint’s 2011 Annual Report. Throughout a challenging year, the men
and women at each of our facilities have delivered outstanding results. It is on their behalf that I detail our
accomplishments and preview the road ahead.
Federal law requires the United States Mint (Mint) to operate two fiscally separate programs: circulating coins and
numismatic products. Our numismatic program comprises three principle segments: collectible coins, precious
metal bullion investment-grade coins, and national medals. Our mission is somewhat different than a private sector
corporation, but we keep detailed scores on ourselves (and are audited) in much the same way. In FY 2011, our
circulating coin, numismatic collectible, and bullion coin programs experienced significant revenue growth.
Circulating revenues grew 25.7 percent, from $618.2 million to $776.9 million. Precious metal bullion revenues
grew 21.6 percent, from $2,855.4 million to $3,471.4 million. Numismatic revenues grew 74.7 percent, from $413.1
million to $721.7 million. Our circulating seigniorage (earnings) grew 16.0 percent, from $300.8 million to $348.8
million. Bullion net income grew 19.2 percent, from $55.2 million to $65.8 million. Finally, numismatic net income
grew 127.3 percent, from $49.8 million to $113.2 million.
Before discussing each program in more detail, I would like to highlight some of the other key milestones of FY 2011:
	        • C irculating coin shipments recovered to 7.4 billion coins.
	        • Precious metal bullion sales set record highs for both revenue and total ounces sold.
	        • We resumed silver bullion production in San Francisco – the first time we have made bullion there
            since 1998.
	        • Numismatic revenues set a record high driven, in part, because of the return of the 2010 American Eagle
            Silver Proof Coin and early calendar year release of our 2011 United States Mint Proof Sets®, United
            States Mint Silver Proof Sets®, and United States Uncirculated Coin Sets®.
	        • We signed a new five-year collective bargaining agreement with our union.
	        • We invested in our future by making significant progress on our primary customer-centered initiative:
            a new order fulfillment system with state-of-the-art e-commerce features.
	        • We are also progressing on an important initiative for the entire Nation: a research and development
            effort to explore new, more cost-effective metallic materials for our circulating coins.
	        • Furthering our commitment to green initiatives, our Headquarters building in Washington, D.C. became
            ENERGY STAR certified.



                                                          1
                                           The United States Mint ranked 57 out of 240 agencies and bureaus
                                           in the Best Places to Work in the Federal Government in 2011,
                                           a significant improvement from 2010. The Mint was recognized
                                           by the Partnership for Public Service for being the most improved
                                           federal agency subcomponent.




Circulating
The key drivers for our circulating segment in FY 2011 were increased demand from the Federal Reserve and the
continuation of penny and nickel costs exceeding their face values. Circulating shipments recovered to 7.4 billion
coins in FY 2011. Following peak shipments of over 27 billion coins in FY 2000 (driven by Year 2000 concerns
and the popularity of the 50 State Quarters® Program), our annual shipments had declined to 10 billion in FY 2008.
In FY 2009, the economic crisis triggered a massive flow-back of coins from circulation to the depository institutions
and ultimately the Federal Reserve Banks (FRB). As a result, the FRB ordered only 5.2 billion new coins from the
Mint in FY 2009, the lowest level since the 1960s. Demand for coins increased in FY 2011 to 7.4 billion coins,
representing a 19.3 percent Compound Annual Growth Rate from the FY 2009 low. The teams at Denver and
Philadelphia, as well as our entire supply chain, effectively worked together to anticipate and meet the increased
production volume. We are very proud of our manufacturing plants and the outstanding safety and fulfillment
accomplishments they achieved in FY 2011.
As they have for the past five years, the costs to manufacture and distribute both the penny and the nickel exceeded
their face values in FY 2011. High commodity prices for base metals, along with lower production volumes, were
the principle reasons for these higher per-unit costs. Also in FY 2011, we improved an accounting practice and
began allocating some sales, general, and administrative (SG&A) costs to the penny and the nickel where none had
been charged previously. Because of these factors, the FY 2011 year-end cost of a penny was $0.0241 per coin.
Likewise, the year-end cost of the nickel was $0.1118 per coin. Positive seigniorage from our other denominations
offset the negative seigniorage from the penny and nickel.
Precious Metal Bullion
The Mint is proud to offer 22- and 24-karat gold, 99.9 percent silver, and 99.95 percent platinum bullion coins. FY
2011 was a record year in both unit volume and total ounces sold. Gold and silver prices reached all-time highs in
2011, as investors evidently chose bullion assets in favor of other investment categories. The Mint is the world’s
largest producer of precious metal bullion coins and our presses produced a record 43.5 million bullion pieces
in FY 2011, representing over 45.2 million ounces.
While gold gets most of the attention because of its higher price and the corresponding dollar magnitude, it was
actually silver that dominated the scene in 2011 on a unit-volume basis. This sustained high volume was one
of the considerations that led us to our decision in February to resume minting one-ounce silver bullion coins
in San Francisco. In addition, Philadelphia brought the new five-ounce America the Beautiful Silver Bullion Coins™
to market in FY 2011.
Although we did not produce platinum bullion coins in 2011, we are evaluating, in conjunction with our authorized
purchaser distribution channel, the optimum way to bring back American Eagle Platinum Bullion Coins in 2012.
A legislatively required market study examining the financial viability of a palladium bullion coin will soon begin.
We look forward to presenting the results of that study to the Secretary of the Treasury and Congress.




                                                          2
Numismatic Collector Coins and Medals
FY 2011 was a record year for Mint numismatic revenue. Total FY 2011 numismatic sales revenue increased 74.7
percent, from $413.1 million in FY 2010 to $721.7 million in FY 2011. We were very pleased to bring back the
American Eagle Silver Proof Coin Program, which saw both the 2010 and 2011 coins launched for sale during
FY 2011. Contributing $83.6 million in incremental revenues over the prior year, we look forward to additional
growth in this popular program in FY 2012 through our special five-coin American Eagle 25th Anniversary
Silver Coin Set.
Our new products for 2011 also included the unique America the Beautiful Five Ounce Silver Uncirculated Coin™,
featuring beautiful designs of our country’s national parks and historic sites. We also reprised the West Point mint
mark for the American Eagle Silver Uncirculated Coin in 2011 and look forward to expanding this offering to
include the San Francisco mint mark in 2012.
The Road Ahead
Our efforts in the year ahead will continue to focus on our customers. Our everyday mission is to produce
cost-effective circulating, bullion, and numismatic coins to meet the needs of our customers and the nation. The
Mint team executes this bread-and-butter mission very well and will continue to do so throughout 2012 and beyond.
While staying focused on this core mission, we also need to understand the broader trends, dynamics, and realities
of today’s economic environment—more so now than perhaps at any other time in recent Mint history. Specifically,
we need to focus on the metals composition and purchasing power of our circulating coins.
Every few generations the nation adjusts the metals content (and occasionally the actual denominations, physical
size, and weight) of its circulating coins. The last major overhaul of United States coinage occurred 46 years ago in
1965. In December 2010, in response to the increased metals and production costs of the past five years, Congress
passed the “Coin Modernization, Oversight, and Continuity Act of 2010,” authorizing the Mint to conduct advanced
research and development of new metals formulations for our circulating coins. The law requires the Mint to issue
its first report with any findings and recommendations to Congress by December 2012. As was done in 1965, we
have selected a contractor to conduct the research and development. The contractor will prepare a report of its
findings that will serve as the basis for our recommendations to Congress. We are clearly focused on delivering to
Congress a thorough, well-researched report that provides a prudent framework for future legislation to modernize
our nation’s circulating coins.
Finally, on a personal note, I was humbled and honored to be appointed Deputy Director of the Mint by the Treasurer
of the United States, Rosie Rios, in January 2011. The opportunity to lead the United States Mint team during this
exciting time is the highlight of my professional career. Before my appointment as Deputy Director, I led the Mint’s
Manufacturing function for two years. In my time at the Mint, I have met and come to know many of our employees.
Our people—our team—are the real heart and soul of the Mint. Whether it is the production associate on the shop
floor in one of our facilities, the Mint Police officer keeping our nation’s gold safe at Fort Knox, or one of our
support staff in Washington, it is the hard work of each person on the team that together drives the outstanding
results the Mint delivers each and every day. Each one of our employees has my personal thanks for a job well done
in 2011. It is because of them, and their commitment to service, that I am confident that we are well prepared for the
opportunities and challenges that lie ahead.

Sincerely,




Richard A. Peterson, Deputy Director



                                                          3
Front row, left to right : Al Runnels, Acting Chief of Staff; Daniel Riordan, Associate Director of Workforce
Solutions; Goutam Kundu, Chief Information Officer; Patricia M. Greiner, Chief Financial Officer;
Tom Jurkowsky, Director of Public Affairs; Andy Fishburn, Director of Legislative Affairs;
Dick Peterson, Deputy Director
Second row, left to right : Eric Anderson, Executive Secretary; Larry Eckerman, San Francisco Plant Manager;
Dennis O’Connor, Chief of Protection; Ellen McCullom, West Point Plant Manager; B. B. Craig, Associate
Director of Sales and Marketing; Daniel P. Shaver, Chief Counsel; David Croft, Denver Plant Manager;
J. Marc Landry, Acting Associate Director of Manufacturing and Philadelphia Plant Manager


Organizational Profile

Our Mission: To manufacture and distribute circulating coins, precious metal and collectible coins, and national
medals to meet the needs of the United States.
Our Vision: To become recognized as the finest mint organization in the world through excellence in our people,
products, customer service, and workplace.
Established in 1792, the Mint is the world’s largest coin manufacturer. Since Fiscal Year (FY) 1996, the Mint
has operated under the United States Mint’s Public Enterprise Fund (PEF). As authorized by Public Law 104-52
(codified at 31 U.S.C. § 5136), the PEF enables the Mint to operate without an appropriation. We generate revenue
through the sale of circulating coins to the Federal Reserve Banks (FRB), numismatic products to the public and
bullion coins to authorized purchasers. Money in excess of amounts required by the PEF is transferred to the United
States Treasury General Fund.
The Mint operates six facilities and employs approximately 1,800 employees across the United States. Each facility
performs unique functions critical to our overall operations. Manufacturing facilities in Philadelphia and Denver
produce coins of all denominations for circulation. Both facilities also produce dies for striking coins. All sculpting
and engraving of circulating, bullion, and numismatic coin and medal designs is performed in Philadelphia.
Production of numismatic and bullion products is primarily performed at facilities in San Francisco and West Point.
All four production facilities produce commemorative coins as authorized by federal laws. The United States
Bullion Depository at Fort Knox stores and safeguards United States gold bullion reserves. Administrative and
oversight functions are performed at our Headquarters in Washington, D.C.

                                                           4
Table of Contents


     The United States Mint at a Glance							                         6


     Management Discussion and Analysis						 9


     Message from the Acting Chief Financial Officer					              25


     Independent Auditors’ Report							26


     Financial Statements								28

     Notes to Financial Statements							32


     Required Supplementary Information						48


     Independent Auditors’ Report on Internal Controls					            49


     	     Exhibit I – Significant Deficiencies						                  51


     	     Exhibit II – Management Response						                      52


     Independent Auditors’ Report on Compliance and Other Matters			   53


     Appendix I: FY 2011 Coin and Medal Products					                  55




                                       5
                                 THE united states MINT AT A GLANCE
                                                                                                        Revenue (dollars in millions)
                                                                                                                                                              Seigniorage and Net Income                                       Transfer to the Treasury Ge
                                 UNITED STATES MINT                                                     Revenue (dollars in millions)             4,970.0                     Revenue
                                                                                                                                                              (dollars in millions,     byprotection
                                                                                                                                                                                    before Line of Business
                                                                                                                                                                                                     cost)                     (dollars in millions)
                                                                                                                                                                              (percent
                                                                                                                                                              Seigniorage and Net      of total)
                                                                                                                                                                                  Income                                       Transfer to the Treasury Ge
                                 The Mint is the world’s largest coin manufacturer.                                                     3,886.7
                                                                                                                                                  4,970.0     1,085.6
                                                                                                                                                              (dollars in millions, before protection cost)                    (dollars in millions)
                                                                                                                                                                                                                                825.0
                                 Our men and women manufacture and distribute                                                           3,886.7
                                                                                                                                                              1,085.6Bullion                                       Numismatic
                                                                                                                                                                                                                     14.5%
                                                                                                                                                                                                                                           750.0
                                                                                                                                                                     69.9%806.4                                                 825.0
                                 circulating coins, precious metals, collectible                                  2,800.5
                                                                                                                             2,912.4
                                                                                                                                                                                                                                           750.0
                                                                                                                                                                            806.4
                                 coins, and national medals to meet the needs of                        2,635.4
                                                                                                                   2,800.5
                                                                                                                             2,912.4
                                                                                                                                                                                                          527.8
                                                                                                                                                                                                                                                       475.0
                                                                                                                                                                                                                                                               3
                                                                                                                                                                                       501.6
                                 the United States. Our vision is to be recognized                      2,635.4
                                                                                                                                                                                                 405.8
                                                                                                                                                                                                          527.8
                                                                                                                                                                                                                                                       475.0
                                                                                                                                                                                                                                                               3
                                                                                                                                                                                       501.6
                                 as the finest mint in the world through excellence                                                                                                              405.8                  Circulating
                                                                                                                                                                                                                          15.6%
                                 in our people, products, customer service,
                                 and workplace.                                                          2007       2008      2009       2010      2011        2007         2008       2009      2010     2011                  2007        2008       2009    2

                                                                                                         2007       2008      2009       2010      2011        2007         2008       2009      2010     2011                  2007        2008       2009    2
                                                   Revenue (dollars in millions)
                                                                                                         Seigniorage and Net Income                          Transfer
                                                                                                                                                             Revenue to the Treasury
                                                                                                                                                                      (dollars            General Fund
                                                                                                                                                                               in millions)                                    Revenue (dollars in millions)
                                                                                              4,970.0
                                                                                                         (dollars in millions, before protection cost)                      Revenue
                                                                                                                                                             (dollars in millions)
                                                                                                                                                                                        by Denomination
                                                                                                        Revenue (dollars in millions)                                                 (dollars in millions)3,471.4
                                 CIRCULATING Coinage                       3,886.7
                                                                                                        1,085.6                                              Revenue (dollars in millions)                                     Revenue (dollars in millions)
                                                                                                                                                                                                2,855.4   3,471.4
                                                                                                                                                                                                              One-Cent
                                                                                                        Revenue
                                                                                                        1,727.8 (dollars in millions)
                                                                                                                                                              825.0 $1 Coin
                                 The Mint is the sole manufacturer of legal tender                                                                                      750.0                                        42.9       551.5      557.2
                                                                                                                                                                      467.0
                                                                                                                   806.4                                                                        2,855.4
                                 coinage in the United States.
                                                           2,800.5
                                                                    The Mint’s highest
                                                                   2,912.4                              1,727.8
                                                                                                                  1,294.5
                                                                                                                                                                                                                       Five-Cent
                                                                                                                                                                                                                         45.7 551.5        557.2       440.0
                                 priority is to efficiently
                                                   2,635.4
                                                             and effectively mint                                 1,294.5                          527.8
                                                                                                                                                                                      475.0
                                                                                                                                                                                      1,694.8
                                                                                                                                                                                                388.0                                                  440.0
                                                                                                                                                                                                                                                               41
                                                                                                                              501.6
                                 and issue circulating coinage.                                                               777.6
                                                                                                                                        405.8
                                                                                                                                                   776.9
                                                                                                                                                                                      1,694.8
                                                                                                                                                                                                                            Dime                               41
                                                                                                                                        618.2                               948.8                                           140.3
                                                                                                                              777.6                776.9
                                                                                                                                        618.2                               948.8                          51.0
                                                                                                                                                               356.1
                                                                                                                                                                                                                     Quarter-Dollar
                                                     2007      2008       2009      2010       2011      2007       2008      2009       2010      2011       356.1
                                                                                                                                                              2007          2008       2009     2010      2011          81.0
                                                                                                         2007       2008      2009       2010      2011       2007          2008       2009     2010      2011                  2007        2008       2009    2
venue (dollars in millions)                                                                              2007       2008      2009       2010      2011        2007         2008       2009     2010      2011                  2007        2008       2009    2
                                                     Seigniorage and Net Income                         Transfer to the Treasury General Fund
                                        4,970.0
                                                     (dollars in millions, before protection cost)      (dollars in millions)                                                  Revenue by Program
                                                                                                        Revenue (dollars in millions)                        Revenue (dollars in (dollars
                                                                                                                                                                                  millions)
                                                                                                                                                                                            in millions)
                                 BULLION Coins
                              3,886.7
                                                  1,085.6 (dollars in millions)
                                                 Revenue                                                                                          3,471.4
                                                                                                                                                                                                          721.7
                                                                                                         825.0                                                    American
                                 The Mint is the world’s largest producer of gold                                  750.0                2,855.4                  Eagle Silver
                                                  1,727.8   806.4                                                                                             551.51,464.0
                                                                                                                                                                        557.2
        2,800.5
                  2,912.4        and silver bullion coins. The bullion program
                                                                                                                                                                                       440.0                            America the
635.4
                                 provides consumers a simple
                                                          1,294.5
                                                                      and tangible means527.8
                                                                                                                              475.0
                                                                                                                                         388.0                                                                         Beautiful Silver
                                                                      501.6                                                  1,694.8                                                            413.1                      110.0
                                 to acquire precious metal coins.        Investors
                                                                      777.6      405.8 purchase
                                                                                        776.9                                                                                                                            American
                                 bullion coins for the intrinsic metal value    618.2 and                           948.8                                                                                               Buffalo Gold
                                                                                                                                                    51.0                                                                   207.9
                                 the United States Government’s guarantee of                                                                                     American
                                                                                                                                                                Eagle Gold
                                                                                                         356.1
007      2008      2009          each 2011
                               2010   coin’s metal2007
                                                     weight,   content,
                                                            2008      2009 and      purity.
                                                                                 2010   2011             2007       2008      2009       2010      2011           1,689.5

                                                     2007      2008       2009      2010       2011      2007       2008      2009       2010      2011       2007          2008       2009     2010      2011

                                                                                                                                                                                     Revenue by Program
                                                    Revenue (dollars in millions)                       Revenue (dollars in millions)                                                 (dollars in millions)
venue (dollars in millions)     NUMISMATIC Products                           3,471.4
                                                                                                                                                    721.7                                                           Numismatic
                                                                                                                                                                                                              Sale of Circulating Coins
727.8
                                The Mint prepares and distributes numismatic
                                                                      2,855.4                                                                                    American Eagle
                                                                                                                                                                                                                         14.5
                                                                                                         551.5     557.2                                            370.8
                                products for collectors and those who desire                                                                                                                                           Commemorative
        1,294.5                                                                                                               440.0                                                                                        43.2
                                high-quality versions of coinage. We make                                                               413.1
                                                              1,694.8
                   777.6        numismatic
                                     776.9  products accessible, available,
                                                                                                                                                                                                                        American Buffalo
                                and affordable to customers.
                              618.2                     948.8                                                                                                                                                                61.8

                                                      356.1

                                                                                                                                                                                                                  Recurring
007      2008      2009        2010     2011         2007       2008      2009       2010      2011      2007       2008      2009       2010      2011                                                            231.4


                                                    Revenue (dollars in millions)                                                                                 Seigniorage and Net Income by Line of Business
                                                                                                         Seigniorage and Net Income                          Transfer to theinTreasury
                                                                                                                                                                   (dollars    millions, General Fund
                                                                                                                                                                                         before protection cost)
                                 SEIGNIORAGE and net income 4,970.0                                      (dollars in millions, before protection cost)       (dollars in millions)

                                 Seigniorage is the difference between       the face
                                                                         3,886.7
                                                                                                        1,085.6                                                   Numismatic
                                                                                                                                                              825.0 113.2
                                 value and cost of producing coinage. The Mint                                                                                          750.0
                                                                                                                    806.4
                                 transfers seigniorage to2,800.5
                                                           the Treasury
                                                                 2,912.4
                                                                           General
                                                                                                                                                                                                                        Circulating
                                 Fund to help finance national debt. Net income
                                                  2,635.4
                                                                                                                                                   527.8
                                                                                                                                                                                       475.0
                                                                                                                                                                                                388.0                      348.8
                                                                                                                              501.6
                                 from bullion and numismatic operations can                                                              405.8
                                                                                                                                                                  Bullion
                                 also fund federal programs.                                                                                                       65.8
                                                                                                                                                                                                           51.0


                                                     2007       2008      2009      2010       2011      2007       2008      2009       2010      2011       2007          2008       2009     2010      2011

                                                                                                                         6

                                                                                                        Revenue (dollars in millions)                        Revenue (dollars in millions)
                                                                                                                                                   3,471.4
                                                    Revenue (dollars in millions)                                                                                                                          721.7

                                                                                                                                        2,855.4
                                                    1,727.8
                        Gross Cost (dollars in millions)                                          2011 PERFORMANCE
                                                                      4,442.2
                                                                                                  Revenue and net income improved across all three business lines in FY 2011. Total
                                                           3,480.9
                                                                                                  revenue approached $5.0 billion, increasing 27.9 percent from last year. Sales demands
                                                                                                  and metal market prices drove demand for bullion revenue to a new record high. Growing
                                                 2,410.8                                          demand for coinage increased circulating revenue from prior years. While aggregate
                                    1,994.1                                                       sales, general, and administrative (SG&A) expenses declined 5.9 percent from last year,
                         1,549.8                                                                  higher cost of goods sold (COGS) increased gross costs 27.6 percent to $4.4 billion.
                                                                                                  Total seigniorage and net income, before Protection expense, climbed 30.1 percent
                                                                                                  to $527.8 million.
                          2007       2008         2009      2010       2011


                                         Shipments
                                     (millions of coins)
                                                               five-cent                          Circulating coin shipments increased 37.0 percent to 7,396 million coins in FY 2011.
                                                                  914
                                                                                                  Shipments of all coin denominations increased from FY 2011 with nickels and dimes
                   one-cent                                                                       experiencing the strongest annual growth. Circulating revenue increased 25.7 percent
                    4,289                                                   dime
                                                                            1,403                 to $776.9 million. Seigniorage increased 16.0 percent to $348.8 million, but rising metal
                                                                                                  expenses and higher volumes of pennies and nickels reduced seigniorage per dollar
                                                                                                  issued to $0.45 from $0.49 last year.
                                                                        quarter-dollar
                                                                             323

                                                                $1 coin
                                                                 467



                                              Sales
                                      (millions of ounces)
                                                                    American                      Demand for bullion coins reached a new high in FY 2011, surpassing the unprecedented
                    American
                   Eagle Silver
                                                                   Eagle Gold
                                                                      1.1
                                                                                                  demand of FY 2010. The Mint sold 45.2 million ounces of gold and silver bullion coins
                      41.3                                                American
                                                                         Buffalo Gold
                                                                                                  in FY 2011, up approximately 9.4 million ounces (26.2 percent) from last year. The bureau
                                                                             0.1                  sold a record volume of coins at higher prices because of increased market value for gold
                                                                            America the
                                                                          Beautiful Silver        and silver. Total bullion revenue increased 21.6 percent to nearly $3.5 billion in FY 2011.
                                                                                 2.7
                                                                                                  Bullion net income increased 19.2 percent to $65.8 million.




                                            Sales
                                   (thousands of units sold)
                                                                                                  Numismatic sales increased 11.6 percent to approximately 7.3 million units in FY 2011.
                                                                American Eagle 1,938
                      Recurring                                                                   The Mint was able to offer popular gold and silver coin products previously unavailable
                       4,081
                                                                         American Buffalo         because blanks were dedicated to the bullion program. This, as well as release of new
                                                                               36
                                                                                                  products, drove numismatic sales revenue up 74.7 percent to $721.7 million. Numismatic
                                                                            Numismatic Sales      net income and seigniorage increased 127.3 percent to $113.2 million.
                                                                           of Circulating Coins
                                                                                   611


                                                                      Commemorative
                                                                          645




me                       Transfer to the Treasury General Fund
ection cost)             (dollars in millions)
                                                                                                  Transfer to the General Fund
                          825.0                                                                   In FY 2011, the Mint made an on-budget transfer of $51.0 million to the Treasury General
                                     750.0
                                                                                                  Fund. This represented earnings from the prior fiscal year for our numismatic and bullion
                                                                                                  programs. There was not an off-budget transfer to the General Fund this fiscal year.
                                                  475.0
         527.8                                              388.0                                 Instead, the Mint held cash in reserve for future potential impacts to our circulating
405.8
                                                                                                  program from continued penny and nickel losses and a decline in demand for the $1 coin.
                                                                        51.0


2010     2011              2007       2008        2009      2010        2011


                                                                                                                          7
                         Revenue (dollars in millions)
         3,471.4
                                                                        721.7

,855.4
                          551.5      557.2
2011 America the beautiful quarters® Program
In 2010, the United States Mint began issuing 56 quarter-dollar coins featuring designs
    of national parks or historic sites. During FY 2011, we released coins honoring
Mount Hood National Forest, Gettysburg National Military Park, Glacier National Park,
            Olympic National Park and Vicksburg National Military Park.




                                          8
EFFECTIVELY MET ALL CIRCULATING DEMAND

As America’s sole manufacturer of legal tender coinage, the efficient and effective production and distribution
of coinage is the Mint’s highest priority.
We mint and issue circulating coins to the FRB in quantities they determine necessary to replenish inventory and
fulfill the demand of commercial banks and other financial institutions. These depository institutions then distribute
coins to meet the demand of retailers and the public. The Mint recognizes revenue from the sale of circulating
coins at face value when they are shipped to the FRB.
CIRCULATING RESULTS
Circulating coin demand increased in FY 2011 from                          Total Circulating Coin Production (coins in millions)
prior year lows. Total circulating coins shipped to the                  30,000
FRB increased 37.0 percent to 7,396 million pieces in
                                                                         25,000
FY 2011 from 5,399 million pieces in FY 2010.
Shipments of all coin denominations increased. Nickel                    20,000

and dime shipments experienced the greatest annual
                                                                         15,000
growth, increasing 154.6 percent and 58.2 percent,
respectively, from FY 2010.                                              10,000


The total dollar value of circulating shipments rose 25.7          5,000

percent to $776.9 in FY 2011 from $618.2 million in                    0
                                                                             1971      1981     1991       2001     2011
FY 2010. Seigniorage increased 16.0 percent to $348.8
million from $300.8 million last year. Larger production
volumes and higher raw material expenses increased
the gross cost from circulating operations. Circulating gross costs rose 34.9 percent to $428.1 million in FY 2011
from $317.4 million in FY 2010. Increased metal expenses drove COGS up 52.5 percent to $364.7 million from
$239.2 million last year. Market prices for copper, nickel, and zinc climbed through FY 2011, increasing per unit
metal costs for all circulating denominations. Average market prices for copper and nickel increased 29.3 percent
and 19.2 percent, respectively, from FY 2010 to FY 2011. The average daily spot for zinc rose 7.6 percent over
the same time period. SG&A declined 18.9 percent to $63.4 million in FY 2011 from $78.2 million in FY 2010,
reflecting reductions in payroll, rent, and contract service expenses. In addition, a smaller portion of total general
and administrative expenses was allocated to circulating operations under a new allocation approach. The increase
in COGS relative to the total value of shipments decreased seigniorage per dollar issued to $0.45 in FY 2011 from
$0.49 in FY 2010.


CIRCULATING (dollars in millions except seigniorage per $1 issued)
                                                                                                                    % Change
                                          2011           2010             2009           2008           2007        2010 to 2011

Value of Shipments                    $   776.9      $   618.2       $     777.6      $ 1,294.5      $ 1,727.8          25.7%
Gross Cost                            $   428.1      $   317.4       $     349.8      $ 588.3        $ 722.6            34.9%
 Cost of Goods Sold                   $   364.7      $   239.2       $     251.7      $ 491.3        $ 629.1            52.5%
 Sales, General & Administrative      $    63.4      $    78.2       $      98.1      $    97.0      $    93.5         (18.9%)
Seigniorage                           $   348.8      $   300.8       $     427.8      $ 706.2        $ 1,005.2          16.0%
Seigniorage per $1 Issued             $    0.45      $    0.49       $      0.55      $    0.55      $    0.58




                                                                 9
                                                                                                                              Renee Moton, budget branch chief, ensures that
                                                                                                                              departmental and agency budgets are formulated
                                                                                                                              correctly and that funds are spent wisely.




                                  Base Metal Daily Official Spot Price (prices per metric tonne in dollars)
                                  Copper                                                                                              Zinc                                                                                   Nickel
                         12,000                                                                                               5,000                                                                                 60,000


                                                                                                                              4,000                                                                                 50,000
                         10,000




                                                                                                                                                                                           Price per metric tonne
Price per metric tonne




                                                                                                                                                                                                                    40,000
                                                                                                     Price per metric tonne
                          8,000                                                                                               3,000
                                                                                                                                                                                                                    30,000
                          6,000                                                                                               2,000
                                                                                                                                                                                                                    20,000

                          4,000                                                                                               1,000
                                                                                                                                                                                                                    10,000

                          2,000                                                                                                  0                                                                                      0
                                         Sep-07      Sep-08    Sep-09     Sep-10     Sep-11                                                  Sep-07    Sep-08   Sep-09   Sep-10   Sep-11                                              Sep-07   Sep-08   Sep-09   Sep-10   Sep-11




                            The unit cost for both penny and nickel denominations remained above face value for the sixth consecutive fiscal
                            year. Because of increased unit cost and higher demand, penny and nickel coins were produced at a loss of $116.7
                            million, nearly three times the FY 2010 loss of $42.6 million.
                            cost allocation approach
                            In FY 2011, the Mint implemented a new method for allocating SG&A expenses. Previously, SG&A cost was
                            allocated to products based on gross margin. Little or no allocated SG&A expense was applied to the penny and
                            nickel because they generated negligible or negative gross margins. The Mint studied industry best practices and
                            developed a new SG&A cost allocation approach which conforms to accounting standards and leading commercial
                            and public sector best practices. The new approach allocates SG&A expenses based on the costs to manufacture,
                            market, and distribute each product.
                            ALTERNATIVE METAL RESEARCH AND DEVELOPMENT
                            Metal expenses continue to make up the largest portion of circulating production cost. In December 2010, President
                            Obama signed into law the Coin Modernization, Oversite, and Continuity Act of 2010 (Public Law 111-302) to
                            provide the Secretary of the Treasury research and development authority for alternative metallic materials for
                            circulating coins. To provide technical expertise and ensure an independent assessment, the Mint entered into a
                            contract with an external firm to preform research and development in advance of the Mint’s first report.
                            CIRCULATING PRODUCTION OPERATIONS
                            In FY 2011, we made changes to the minting process at both Philadelphia and Denver facilities. Changes to die and
                            blank processing improved the quality of coins and made dies last longer. The circulating Mint Quality Index, our
                            measure of coin appearance against quality criteria, increased from 95.0 percent in FY 2010 to 98.0 percent in FY
                            2011. Average die life for nickels, dimes and quarters increased 70.8 percent in FY 2011, reducing the raw material
                            and production costs we incur to manufacture dies for circulating coins.
                            The Philadelphia and Denver facilities also implemented a quick die-change process to reduce the amount of time
                            machines sit idle. Longer die life and less downtime mean our equipment runs more effectively. In FY 2011,
                            Philadelphia and Denver increased overall equipment effectiveness by 9.1 percent and 4.6 percent, respectively,
                            from last year. This key industry indicator shows how effectively manufacturing equipment operates compared to
                            expected output speed and yield.

                                                                                                                                                      10
SHIPMENTS, COSTS AND SEIGNIORAGE BY DENOMINATION
(coins and dollars in millions except seigniorage per $1 issued)

2011                                 One-Cent        Five-Cent             Dime     Quarter-Dollar Half-Dollar                     $1     Mutilated          Total
                                                                                                                                           & Other
Coins Shipments                          4,289            914            1,403           323                     –             467               –         7,396
Value of Shipments                   $      42.9     $      45.7     $     140.3    $     81.0           $       –         $   467.0      $      –     $     776.9
Gross Cost                           $     103.1     $    102.2      $      79.3    $     36.0           $       –         $    84.2      $    23.3    $     428.1
 Cost of Goods Sold                  $      85.4     $      86.1     $      67.1    $     30.3           $       –         $    72.5      $    23.3    $     364.7
 Sales, General & Administrative     $      17.7     $      16.1     $      12.2    $      5.7           $       –         $    11.7      $      –     $      63.4
Seigniorage                          $      (60.2)   $     (56.5)    $      61.0    $     45.0           $       –         $   382.8      $   (23.3)   $     348.8
Seigniorage per $1 Issued            $      (1.40)   $     (1.24)    $      0.43    $     0.56           $       –         $    0.82      $      –     $      0.45

2010                                 One-Cent        Five-Cent             Dime     Quarter-Dollar Half-Dollar                     $1     Mutilated          Total
                                                                                                                                           & Other
Coins Shipments                          3,487            359             887            252                      –            414                –        5,399
Value of Shipments                   $      34.9     $      17.9     $     88.7     $     63.2           $        –        $   413.5      $       –    $     618.2
Gross Cost                           $      62.3     $      33.1     $     50.6     $     32.2           $     0.1         $   130.7      $     8.4    $     317.4
 Cost of Goods Sold                  $      62.3     $      33.1     $     40.8     $     24.6           $     0.1         $    69.9      $     8.4    $     239.2
 Sales, General & Administrative     $         –     $         –     $      9.8     $      7.6           $        –        $    60.8      $       –    $      78.2
Seigniorage                          $     (27.4)    $     (15.2)    $     38.1     $     31.0           $    (0.1)        $   282.8      $    (8.4)   $     300.8
Seigniorage per $1 Issued            $     (0.79)    $     (0.85)    $     0.43     $     0.49           $        –        $    0.68      $       –    $      0.49

2009                                 One-Cent        Five-Cent             Dime     Quarter-Dollar Half-Dollar                     $1     Mutilated          Total
                                                                                                                                           & Other

Coins Shipments                          3,218            207             358            965                      –            459                –        5,207
Value of Shipments                   $      32.2     $      10.3     $     35.7     $    241.3           $        –        $   458.1      $       –    $     777.6
Gross Cost                           $      52.0     $      12.5     $     20.2     $    109.1           $    (0.1)        $   139.4      $    16.7    $     349.8
 Cost of Goods Sold                  $      52.0     $      12.2     $     16.6     $     80.3           $    (0.2)        $    74.1      $    16.7    $     251.7
 Sales, General & Administrative     $         –     $        0.3    $      3.6     $     28.8           $     0.1         $    65.3      $       –    $      98.1
Seigniorage                          $     (19.8)    $       (2.2)   $     15.5     $    132.2           $     0.1         $   318.7      $   (16.7)   $     427.8
Seigniorage per $1 Issued            $     (0.61)    $     (0.21)    $     0.43     $     0.55           $        –        $    0.70      $       –    $      0.55


UNIT COST OF PRODUCING AND DISTRIBUTING COINS BY DENOMINATION
2011                                     One-Cent        Five-Cent          Dime        Quarter-Dollar       Half-Dollar            $1


Cost of Goods Sold                       $ 0.0197        $ 0.0938        $ 0.0474       $ 0.0923             $        –        $ 0.1531
Sales, General & Administrative          $ 0.0041        $ 0.0176        $ 0.0087       $ 0.0176             $        –        $ 0.0251
Distribution to FRB                      $ 0.0003        $ 0.0004        $ 0.0004       $ 0.0015             $        –        $ 0.0021
Total Unit Cost                          $ 0.0241        $ 0.1118        $ 0.0565       $ 0.1114             $        –        $ 0.1803

2010                                     One-Cent        Five-Cent          Dime        Quarter-Dollar       Half-Dollar            $1


Cost of Goods Sold                       $ 0.0176        $ 0.0916        $ 0.0454       $ 0.0956             $        –        $ 0.1659
Sales, General & Administrative          $      –        $      –        $ 0.0110       $ 0.0302             $        –        $ 0.1469
Distribution to FRB                      $ 0.0003        $ 0.0006        $ 0.0005       $ 0.0020             $        –        $ 0.0029
Total Unit Cost                          $ 0.0179        $ 0.0922        $ 0.0569       $ 0.1278             $        –        $ 0.3157

2009                                     One-Cent        Five-Cent          Dime        Quarter-Dollar       Half-Dollar            $1


Cost of Goods Sold                       $ 0.0159        $ 0.0579        $ 0.0456       $ 0.0816             $        –        $ 0.1601
Sales, General & Administrative          $      –        $ 0.0014        $ 0.0101       $ 0.0298             $        –        $ 0.1424
Distribution to FRB                      $ 0.0003        $ 0.0010        $ 0.0008       $ 0.0017             $        –        $ 0.0017
Total Unit Cost                          $ 0.0162        $ 0.0603        $ 0.0565       $ 0.1131             $        –        $ 0.3042

Note: FY 2009 $1 Cost of Goods Sold unit cost revised to $0.1601 from $0.1599 in FY 2009 Annual Report to correct a rounding error.

                                                                            11
                   2011 AMERICAN EAGLE Silver COIN
     The United States Mint introduced the American Eagle Silver Coin Program in 1986.
 The American Eagle Silver Coin’s obverse design features Adolph A. Weinman’s full-length
   figure of Liberty in full stride, enveloped in folds of the flag, with her right hand extended
  and branches of laurel and oak in her left. The reverse design, by former United States Mint
   Sculptor-Engraver John Mercanti, features the heraldic eagle with shield, an olive branch
in the right talon and arrows in the left. Now in its 25th year of issue, the American Eagle Silver
              Coin remains one of the United States Mint’s most popular products.




                                                12
EFFECTIVELY MANAGED BULLION PROGRAM

Our bullion program provides the public a simple and tangible means to acquire precious metal coins from authorized
purchasers as part of an investment portfolio. Investors purchase bullion coins not only for their intrinsic metal
value, but also because the United States guarantees each coin’s metal weight, content, and purity.
We mint and issue gold, silver, and platinum bullion coins to authorized purchasers through American Eagle,
American Buffalo and America the Beautiful Silver Bullion Coin™ Programs. The Mint sells the coins to the
authorized purchasers at the same market price paid for the metal plus a premium to cover bullion program operating
costs. Authorized purchasers agree to maintain an open, two-way market for these coins, assuring their liquidity.
This allows the public to purchase and sell coins at the prevailing market price, adjusting for any premium the
authorized purchaser applies.
BULLION RESULTS                                                                      Total Bullion Sales          (ounces sold in millions)
Demand for bullion coins reached a new high in FY 2011,                       50

surpassing the unprecedented demand of FY 2010. The weak                                                                                45.2
                                                                              45
dollar and global economic uncertainty fueled investor demand
for gold and silver.                                                          40
                                                                                                                             35.8
The Mint sold 45.2 million ounces of gold and silver bullion coins            35

in FY 2011, up approximately 9.4 million ounces (26.2 percent)
                                                                              30
                                                                                                                  27.6
from the previous record total sales of 35.8 million in FY 2010.
We sold this record volume to authorized purchasers at higher                 25

metal market prices. The average spot price of gold and silver                20
                                                                                                       18.4
increased 28.8 percent and 87.9 percent, respectively. Accordingly,
total bullion revenue reached a record high of $3,471.4 million in            15

FY 2011, up $616.0 million (21.6 percent) from $2,855.4 million               10
                                                                                        8.3
in FY 2010.
                                                                                 5
Unprecedented sales of silver bullion products drove record
revenue in FY 2011. Revenue from American Eagle Silver                  0
                                                                            FY 2007  FY 2008   FY 2009  FY 2010  FY 2011
Bullion Coin sales more than doubled, climbing 121.9 percent
to $1,464.0 million. New product sales of America the Beautiful
Quarters Silver Bullion Coins™ also added to bullion revenue growth. Sales of the 2010 and 2011 five-ounce silver
bullion coins generated $110.0 million in revenue in FY 2011. The Mint sold 22.7 percent fewer ounces of American
Eagle Gold Bullion Coins at higher spot prices, resulting in revenue declining slightly (1.2 percent) to $1,689.5
million in FY 2011. American Buffalo Gold Bullion Coin sales and revenue fell substantially from last year, primarily
because of different product release schedules.


BULLION (dollars in millions)
                                                                                                                               % Change
                                       2011          2010              2009                   2008                2007         2010 to 2011

Sales Revenue                       $ 3,471.4     $ 2,855.4         $ 1,694.8           $     948.8           $   356.1             21.6%
Gross Cost                          $ 3,405.6     $ 2,800.2         $ 1,662.1           $     931.0           $   351.6             21.6%
 Cost of Goods Sold                 $ 3,378.8     $ 2,778.4         $ 1,650.0           $     922.6           $   350.0             21.6%
 Sales, General & Administrative    $     26.8    $     21.8        $     12.1          $        8.4          $      1.6            22.9%
Net Income                          $     65.8    $     55.2        $     32.7          $       17.8          $      4.5            19.2%
Bullion Net Margin                       1.9%          1.9%              1.9%                  1.9%                1.3%




                                                               13
                                                                                             Christopher Hyde operates a turning lathe to machine
                                                                                             the outside diameter of a dollar coin reverse die. He can
                                                                                             watch the machining process on-screen.



               Bullion net income increased to $65.8 million in FY 2011, up 19.2 percent from $55.2 million in FY 2010. The bullion
               net margin remained level at 1.9 percent as gross costs increased proportionally with revenue. Bullion COGS,
               primarily reflecting the metal market prices of products sold, increased 21.6 percent to $3,378.8 million in FY 2011
               from $2,778.4 million last year. Bullion SG&A cost increased 22.9 percent to $26.8 million because a larger portion
               of total SG&A expenses was allocated to bullion operations under the new allocation approach. Allocation based on
               level of effort resulted in more SG&A expense going to silver bullion programs and less to gold bullion programs.
               This caused FY 2011 American Eagle Gold Bullion net income to increase 25.2 percent to $44.2 million on slightly
               lower revenue, while American Eagle Silver Bullion net income remained stable despite increased revenue.


        Precious Metal Daily Spot Price (prices per troy ounce in dollars)
        Gold                                                                      Silver                                                        Platinum
2,000                                                                        50                                                         2,500


                                                                             40
                                                                                                                                        2,000
1,500
                                                                             30
                                                                                                                                        1,500
                                                                             20
1,000
                                                                                                                                        1,000
                                                                             10


 500                                                       Sep-11             0
                                                                                                                               Sep-11
                                                                                                                                         500
               Sep-07     Sep-08     Sep-09     Sep-10                                     Sep-07   Sep-08   Sep-09   Sep-10                         Sep-07   Sep-08   Sep-09   Sep-10   Sep-11




               BULLION PRODUCTION OPERATIONS
               We sold an unprecedented volume of 41.3 million American Eagle Silver Bullion Coins in FY 2011. The West Point
               Mint continued to improve its productivity and efficiency, which significantly expanded American Eagle Silver
               Bullion production over the past few years. The facility also transitioned from a chrome-plated sand-blasted die to
               a wire-brushed non-chrome plated die in FY 2011. This new finish was easier to clean and ensured that dies last
               significantly longer, which expanded the volume of bullion coins produced without increasing costs.
               In May 2011, we began fulfilling orders for American Eagle silver bullion with coins minted at the San Francisco
               Mint. The West Point Mint had been the sole producer of these coins for several years. Fulfilling unprecedented
               demand for American Eagle Silver Bullion Coins, as well as producing other mandated bullion and numismatic
               products, stressed our capacity at West Point. Offering the authorized purchasers a pick-up point on the West Coast
               provided them greater flexibility and convenience.
               PALLADIUM BULLION COINS
               On Dec. 14, 2010, President Obama signed the American Eagle Palladium Bullion Coin Act of 2010 into Public
               Law 111-303. Subject to the results of an independent market study, this law provides for the Mint to mint and issue
               a $25 coin weighing one troy ounce and containing .9995 fine palladium. The legislation requires that a third party
               conduct a study analyzing whether there is adequate demand for palladium bullion coins, and if so, whether the coins
               could be minted at no net cost to taxpayers. The Mint contracted with an independent research firm to conduct the
               study in FY 2011. Results of the study will be submitted to the Secretary of the Treasury and Congress for review
               in FY 2012.


                                                                                                             14
BULLION REVENUE, COST AND NET INCOME BY PROGRAM
(dollars in millions)
2011                                 American        American          American         American       America the           Total
                                     Eagle Gold      Eagle Silver      Eagle Platinum   Buffalo Gold   Beautiful Silver
Sales Revenue                        $ 1,689.5       $ 1,464.0         $           –    $ 207.9        $ 110.0            $ 3,471.4
Gross Cost                           $ 1,645.3       $ 1,450.4         $           –    $ 202.9        $ 107.0            $ 3,405.6
 Cost of Goods Sold                  $ 1,642.3       $ 1,428.0         $           –    $ 202.6        $ 105.9            $ 3,378.8
 Sales, General & Administrative     $      3.0      $     22.4        $           –    $    0.3       $    1.1           $     26.8
Net Income                           $     44.2      $     13.6        $           –    $    5.0       $    3.0           $     65.8
Bullion Net Margin                        2.6%            0.9%                             2.4%           2.7%                 1.9%


2010                                 American        American          American         American                             Total
                                     Eagle Gold      Eagle Silver      Eagle Platinum   Buffalo Gold
Sales Revenue                        $ 1,710.8       $ 659.9           $           –    $ 484.7                           $ 2,855.4
Gross Cost                           $ 1,675.5       $ 646.4           $           –    $ 478.3                           $ 2,800.2
 Cost of Goods Sold                  $ 1,663.5       $ 641.7           $           –    $ 473.2                           $ 2,778.4
 Sales, General & Administrative     $     12.0      $   4.7           $           –    $    5.1                          $     21.8
Net Income                           $     35.3      $ 13.5            $           –    $    6.4                          $     55.2
Bullion Net Margin                        2.1%          2.0%                       –       1.3%                                1.9%



2009                                 American        American          American         American                             Total
                                     Eagle Gold      Eagle Silver      Eagle Platinum   Buffalo Gold
Sales Revenue                        $ 1,278.2       $ 372.0           $    23.7        $    20.9                         $ 1,694.8
Gross Cost                           $ 1,252.7       $ 365.9           $    22.7        $    20.8                         $ 1,662.1
 Cost of Goods Sold                  $ 1,245.0       $ 361.9           $    22.4        $    20.7                         $ 1,650.0
 Sales, General & Administrative     $      7.7      $    4.0          $     0.3        $     0.1                         $     12.1
Net Income                           $     25.5      $    6.1          $     1.0        $     0.1                         $     32.7
Bullion Net Margin                        2.0%          1.6%               4.2%             0.5%                               1.9%

Note: The Mint suspended production of American Eagle Platinum Bullion Coins to divert planchet supply and production capacity to
mandatory programs in calendar year 2009. All American Eagle Platinum Bullion revenue recorded in FY 2009 resulted from the sale
of calendar year 2008 coin inventory in the first quarter.




                                                                  15
2011 medal of honor commemorative coin program
 This coin commemorates the establishment of the Medal of Honor, the highest award for valor
in action against an enemy force. The gold coin shows a likeness of the 1861 medal on one side
     and the goddess Minerva on the other. The silver coin depicts the current Army, Navy
 and Air Force Medals of Honor on one side and an infantry soldier carrying a wounded soldier
on the obverse. Surcharge proceeds from this coin are authorized to be paid to the Congressional
       Medal of Honor Foundation, which funds programs to promote courage, sacrifice,
                  selfless service, and patriotism among the American public.




                                              16
EFFECTIVELY MANAGED numismatic program

The Mint’s numismatic program provides high-quality versions of circulating coinage, precious metal coins,
commemorative coins, and medals for sale to the public. Most of our recurring products—such as United States
Mint Uncirculated Coins Sets®, United States Mint Proof Sets®, and United States Mint Silver Proof Sets®—are
required by Federal statute. Other numismatic programs—such as commemorative coins and Congressional Gold
Medals—are required by individual public laws. A main objective of the numismatic program is to increase our
customer base and foster sales while controlling costs and keeping prices as low as practicable.
NUMISMATIC RESULTS
Retail sales of numismatic products increased 13.1 percent to                       Top Selling Numismatic Products
                                                                                            (units sold in thousands)
approximately 7.3 million units in FY 2011. The composition of
                                                                           2010 American Eagle Silver
sales shifted toward higher priced precious metal products, resulting            Proof 1 Ounce Coin
                                                                                                                    850

in significant revenue growth. Numismatic revenue increased 74.7                       2011 Proof Set              841
percent to $721.7 million in FY 2011 from $413.1 million in                2011 American Eagle Silver            751
FY 2010. Strong American Eagle Program sales drove revenue                       Proof 1 Ounce Coin
                                                                                       2010 Proof Set       498
and sales growth.
                                                                                2011 Silver Proof Set      461
Beginning in FY 2009, we were unable to offer numismatic versions
of American Eagle gold and silver products because blanks were
diverted to bullion production. The high demand for bullion coins stretched our resources as bullion took precedence
over numismatic products. We were unable to supply the numismatic products that required the same blanks. Toward
the end of FY 2010, the Mint was able to qualify additional suppliers, expand gold and silver blank supply and resume
production of American Eagle numismatic products. These products went on sale in the first quarter of FY 2011.
In December 2010, the Coinage Modernization, Oversight and Continuity Act of 2010 (Public Law 111-302) granted
the Mint authority to issue American Eagle Gold and Silver Coins in qualities and quantities the Secretary deems
appropriate. This amended the bullion program’s statutory priority and allowed the bureau to make the numismatic
versions of American Eagle coins available for sale, even as bullion demand remained at record highs. Consequently,
the Mint was able to offer both 2010 and 2011 American Eagle gold and silver products for sale in FY 2011. Sales
revenue from all American Eagle numismatic sales climbed to $370.8 million.



NUMISMATIC (dollars in millions)
                                                                                                             % Change
                                       2011        2010           2009          2008              2007       2010 to 2011

Sales Revenue                      $ 721.7       $ 413.1        $ 440.0     $  557.2          $  551.5            74.7%
Gross Cost                         $ 608.5       $ 363.3        $ 398.9     $  474.8          $  475.6            67.5%
 Cost of Goods Sold                $ 543.8       $ 298.6        $ 329.7     $  388.1          $  396.7            82.1%
 Sales, General & Administrative   $  64.7       $ 64.7         $ 69.2      $   86.7          $   78.9             0.0%
Net Income & Seigniorage           $ 113.2       $ 49.8         $ 41.1      $   82.4          $   75.9           127.3%
Numismatic Net Margin                15.7%         12.1%           9.3%       14.8%             13.8%
Seigniorage Portion                $   9.8       $ 12.0         $ 19.3      $   22.5          $   27.1            (18.3%)




                                                           17
                                             After completing the turning and polishing process,
                                             Pamela Allendorf inspects blank dies before they
                                             become production dies.



Numismatic sales and revenue also grew because we released the 2011 United States Mint Proof Set®, 2011 United
States Mint Silver Proof Set®, and 2011 United States Mint Uncirculated Coin Set® in the second quarter, the first
time these core products were available so early in the calendar year. Our customers often purchase products because
of the significance of the year in which they were minted. Making products available earlier allowed customers to
purchase them throughout the calendar year to commemorate anniversaries, birthdays, or other important milestones.
To achieve the early release, we had to shift every step in the supply chain (from finalizing designs to minting coins
and packaging final products) forward by nearly six months. We also released new America the Beautiful Quarters®
numismatic products in FY 2011. Revenue from recurring programs, which include core annual sets and these new
products, increased 20.6 percent to $231.4 million in FY 2011 from $191.9 million last year.
Numismatic program net income and seigniorage increased 127.3 percent to $113.2 million in FY 2011 from $49.8
million in FY 2010. Numismatic net margin increased to 15.7 percent in FY 2011 from 12.1 percent in FY 2010
primarily because SG&A expenses remained flat and made up a smaller portion of growing revenue. Numismatic
COGS increased 82.1 percent to $543.8 million in FY 2011 because sales volumes increased and included more
precious metal products. COGS was consistent relative to revenue, comprising 75.3 percent of revenue in FY 2011
and 72.3 percent last year.
COMMEMORATIVE COINS AND MEDALS
Congress passes legislation authorizing commemorative coins or commemorative medals to honor people, places,
or events, and the President signs the legislation into law. By law, the price of these coins and medals includes a
surcharge authorized to be paid to a recipient organization. We launched two commemorative coin programs and one
commemorative medal program in FY 2011.
The United States Army Commemorative Coin Program recognizes the establishment of the United States Army.
More than 30 million Americans have served in the Army since its founding. As of September 30, 2011, the program
generated $20.5 million in revenue and $2.8 million in eligible surcharges for the recipient organization, the Army
Historical Foundation.
The Medal of Honor Commemorative Coin Program recognizes the establishment of the Medal of Honor in 1861.
The Medal of Honor is the highest award for valor in action against an enemy force that can be bestowed upon an
individual serving in the U.S. Armed Services. Fewer than 3,500 people have been awarded one of these medals.
As of September 30, 2011, the program generated $18.5 million in revenue and $2.2 million in eligible surcharges
for the recipient organization, the Congressional Medal of Honor Foundation.
The September 11 National Medal is a one-ounce silver medal commemorating the 10th anniversary of the 2001
terrorist attacks on the United States. Launched in June with initial shipments in September, this two-year program
generated $9.3 million in revenue and $1.6 million in eligible surcharges as of September 30, 2011. Surcharges are
authorized to be paid to the National September 11 Memorial & Museum at the World Trade Center.
IMPROVING CUSTOMER SERVICE
Because the performance of our numismatic business line depends heavily on our customers’ experience – good or
bad – the Mint conducts customer satisfaction surveys each quarter. Customers evaluate the Mint’s performance as a
provider of numismatic products and identify areas for improvement.


                                                         18
When customers were surveyed in FY 2011, 91.7 percent rated the Mint favorably, up from 86.1 percent in FY
2010. The portion of customers satisfied with the Mint as a coin supplier declined over the past few years, primarily
because we were unable to provide popular American Eagle coins described above. Once we were able to resume
production and sales of these products in early FY 2011, our customer survey responses greatly improved. We also
aimed to improve customers’ ordering experience by ensuring that our call center and order fulfillment center met or
exceeded performance standards for accessibility, call length, and order cycle time.
The Mint also took a fresh look at how we communicate with customers about our products, whether through
e-mail, press releases, marketing materials, or the Internet. By studying “best practices” of other mints and making
the website more robust, the Mint made some small, but important, changes in the way we provide information to
consumers, such as increasing the frequency of our mailings and using larger print so materials are easier to read.


NUMISMATIC REVENUE, COST AND NET INCOME OR SEIGNIORAGE BY PROGRAM
(dollars in millions)

2011                         Recurring    Ultra High American        American    Commemorative Numismatic Sale          Total
                                          Relief     Eagle           Buffalo                   of Circulating

Sales Revenue                $ 231.4      $      –      $ 370.8      $ 61.8      $ 43.2            $ 14.5            $ 721.7
Gross Cost                   $ 219.8      $      –      $ 294.8      $ 53.7      $ 35.5            $ 4.7             $ 608.5
 Cost of Goods Sold          $ 174.7      $      –      $ 281.4      $ 53.1      $ 30.5            $ 4.1             $ 543.8
 Sales, General
 & Administrative            $ 45.1       $      –      $ 13.4       $     0.6   $     5.0         $     0.6         $ 64.7
Net Income & Seigniorage     $ 11.6       $      –      $ 76.0       $     8.1   $     7.7         $     9.8         $ 113.2
Numismatic Net Margin          5.0%              –       20.5%           13.1%       17.8%             67.6%          15.7%


2010                         Recurring    Ultra High American        American    Commemorative Numismatic Sale          Total
                                          Relief     Eagle           Buffalo                   of Circulating

Sales Revenue                $ 191.9      $ 35.1        $ 32.7       $ 115.6     $ 20.1            $    17.7         $ 413.1
Gross Cost                   $ 170.7      $ 37.1        $ 28.4       $ 103.0     $ 18.4            $     5.7         $ 363.3
 Cost of Goods Sold          $ 131.9      $ 36.2        $ 21.9       $ 90.3      $ 14.9            $     3.4         $ 298.6
 Sales, General
 & Administrative            $ 38.8       $      0.9    $     6.5    $ 12.7      $     3.5         $      2.3        $ 64.7
Net Income & Seigniorage     $ 21.2       $     (2.0)   $     4.3    $ 12.6      $     1.7         $     12.0        $ 49.8
Numismatic Net Margin         11.0%           (5.7%)        13.1%     10.9%          8.5%              67.8%          12.1%


2009                         Recurring    Ultra High American        American    Commemorative Numismatic Sale          Total
                                          Relief     Eagle           Buffalo                   of Circulating

Sales Revenue                $ 199.8      $ 112.4       $ 55.1       $ 25.7      $ 21.6            $ 25.4            $ 440.0
Gross Cost                   $ 189.9      $ 106.0       $ 49.9       $ 24.2      $ 22.8            $ 6.1             $ 398.9
 Cost of Goods Sold          $ 152.9      $ 88.9        $ 43.6       $ 21.9      $ 19.1            $ 3.3             $ 329.7
 Sales, General
 & Administrative            $ 37.0       $ 17.1        $     6.3    $     2.3   $      3.7        $ 2.8             $ 69.2
Net Income & Seigniorage     $ 9.9        $ 6.4         $     5.2    $     1.5   $     (1.2)       $ 19.3            $ 41.1
Numismatic Net Margin          5.0%         5.7%            9.4%         5.8%        (5.6%)         76.0%              9.3%

Note: Commemorative coins programs are managed on a calendar year basis. Truncating program results to fiscal year can result
in negative net income even though no single commemorative coin program generated a loss.




                                                                    19
2011 United States Army Commemorative Coin Program
     The United States Army was founded in 1775. This commemorative coin program includes
 $5 gold, $1 silver, and half-dollar clad coins, each with a different design recognizing the more than
   30 million Americans who have selflessly served in the Army. The gold coin shows Continental,
  Civil War, modern, World War II and World War I soldiers. The silver coin symbolizes worldwide
deployment in the 21st century, and the clad coin shows the contributions of service members in peace.




                                                  20
a safe, engaged, productive and valued workforce

It is our goal to have a safe, engaged and innovative workforce, making the Mint the employer of choice for current
and future employees. Embracing innovative practices by engaging modern technologies and becoming more
environmentally sustainable not only benefits our employees, but also benefits the American public.
Safety first
In our manufacturing facilities, several workplace                       Rate of Injury and Illness Cases per 100 Full-Time Workers
safety programs and policies developed over the                     14

past three years have kept injury and illness rates at              12
the Mint lower than industry standards. Our goal for
                                                                    10
FY 2011 was to have fewer than 3.34 injuries and
illnesses per 100 full-time workers. In FY 2011, the                 8

injury and illness rates rose slightly from the year                 6

before. The recordable case rate increased from 2.29                 4

in FY 2010 to 2.74 in FY 2011, still well below our
                                                                     2
goal and industry standards of 6.3.
                                                                     0
The number of work-related injuries or illnesses              1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011

resulting in lost workdays was also up, from 11 lost
time accidents last year to 15 this year. Because ensuring employee safety is a priority at the Mint, we will continue
to conduct monthly executive meetings to discuss injury and illness rates, review any incidents and corrective
actions, and examine ways to reduce risk and prevent future incidents.
The Mint continued to provide secure workplaces for our employees and the assets entrusted to us. The Mint Police
improved entrance and exit procedures at all locations. The Mint’s production facilities are housed in historic, aging
structures, which need constant upkeep to ensure worker and product security. Our annual vulnerability assessments
help us prioritize system upgrades to comply with federal and state requirements. In FY 2011, we also upgraded the
electronic security systems across the Mint, improved the road surfaces and fences at Fort Knox, and replaced a
precious metal detector at West Point.
Positive cultural change
In October, management and the American Federation of Government Employees (AFGE) union representatives
signed the Seventh National Agreement, which details improvements in the relationship between the AFGE United
States Mint Council and the Mint. It establishes ground rules for conducting negotiations and addressing issues
at the local level. The agreement also makes a provision for a National Collaborative Council (NCC), a group
consisting of management and union representatives located at each facility to develop and implement solutions to
problems. The NCC meets four times a year and is authorized to establish committees, task forces or other working
groups to resolve issues.
Federal Employee Viewpoint Survey
The United States Office of Personnel Management administers an annual Federal Employee Viewpoint Survey
(FEVS) to full-time, permanent employees in the Federal Government. The survey measures employees’ perceptions
regarding how effectively their agency manages its workforce.
FEVS results are used to develop the Partnership for Public Service’s “Best Places to Work in the Federal
Government” rankings. For the past few years, the Mint has scored low compared to other agencies, but after
making a concerted effort to improve employee satisfaction, our rank improved 144 places, from 201 to 57.




                                                                   21
                                             United States Mint Deputy Director Richard A. Peterson
                                             and Mint Council President of AFGE Richard Sailas worked
                                             together to ensure strong employee labor relations.



In the 2011 FEVS, Mint employee positive response rates improved in 74 out of 84 questions focused on workplace
experience. Employee satisfaction increased across all areas with considerable improvements in leadership, training
and development, performance recognition, and work-life balance. The portion of employees reporting they were
satisfied with their job increased to 73.1 percent in FY 2011 from 64.6 percent in FY 2010. More employees said
they would recommend the Mint as a good place to work (70.2 percent, up from 58.6 percent in FY 2010), and were
satisfied with the organization (66.5 percent, up from 49.9 percent in FY 2010).
Work/life balance and technology
One of the ways the Mint promotes work-life balance is through its telework policy, which has been in place since
2000. Teleworking helps ensure the Mint has continuity of operations and improves employees’ ability to balance
their work and life commitments. In FY 2011, the policy was updated to meet the requirements of the Telework
Enhancement Act of 2010 (Public Law 111-292). This Act has three objectives: to improve Continuity of Operations,
to promote management effectiveness and to enhance work-life balance. Because teleworking requires expanded IT
capability, the Mint improved existing remote workplace capabilities. By the end of the fiscal year, we nearly tripled
the number of employees with telework agreements.
The right people for the right jobs
While technology is an important focus for the future, the work of the Mint could not be accomplished without
our employees. Throughout the Federal Government, the workforce is aging and beginning to retire in increasing
numbers. Quickly hiring the right people for the right job is a priority for the Mint and all agencies as they meet
President Obama’s requirements for hiring reform. Using the Office of Management and Budget’s government-wide
hiring reform guidelines, the Mint has shortened the amount of time it takes to hire new employees. In FY 2011,
23 percent of filled positions were hired within 80 calendar days, an increase from 14 percent in FY 2010.
Sustainability efforts
Implementing our sustainability program has produced positive changes in the workplace. When President Obama
signed Executive Order 13514 in 2009, all agencies were required to achieve a series of sustainability goals. In the
past two years, the Mint has made great strides in reducing its environmental impact across all locations. Overall, the
Mint has reduced its direct greenhouse gas emissions by 20 percent and its potable water consumption by 25 percent
from the 2008 baseline. The Denver Mint now purchases 100 percent of its electricity from renewable sources; San
Francisco installed an energy efficient roof; Philadelphia completed a retro-commissioning, bringing its building up
to current HVAC standards; and Fort Knox now has a high-efficiency natural gas boiler.
Because of these changes, the Mint has been recognized as a leader in sustainability. In 2010, we received the
Federal Electronics Challenge Bronze Award, and in 2011, the Washington, D.C., facility obtained Energy Star
certification. Employees have also taken it upon themselves to cut waste and be more energy efficient, as in San
Francisco, where employees created a ride-share program and started a recycling program.
In 2011, the Mint focused on developing and budgeting for a comprehensive sustainability plan, crafting a
communications and transparency strategy. Committed to the future, the Mint will continue to consider potential
changes that can positively affect the environment.




                                                         22
Analysis of Systems, Controls and Legal Compliance

The Mint is responsible for establishing and maintaining effective internal control over financial reporting and
has made a conscious effort to meet the internal control requirements of the Federal Manager’s Financial Integrity
Act (FMFIA), the Federal Financial Management Improvement Act (FFMIA), Office of Management and Budget
(OMB) Circular A-123, and the Reports Consolidation Act of 2000. The Mint’s programs are operating in
accordance with the procedures and standards prescribed by the Comptroller General and OMB guidelines.
The systems of management controls for the Mint are designed to ensure that:
• programs achieve their intended results and resources are used consistently with the overall mission;
• programs and resources are free from waste, fraud, and mismanagement and laws and regulations are followed;
• controls are sufficient to minimize any improper or erroneous payments and performance information is reliable;
• systems security is in substantial compliance with all relevant requirements;
• continuity of operations planning in critical areas is sufficient to reduce risk to reasonable levels; and
• financial management systems are in compliance with federal financial systems standards, (i.e., FMFIA
   Section 4 and FFMIA).
For all Mint responsibilities, we provide herein unqualified assurance that the above listed management control
objectives, taken as a whole, were achieved by our organization during FY 2011. Specifically, this assurance is
provided relative to Sections 2 and 4 of the FMFIA. We further assure that our financial management systems are
in substantial compliance with the requirements imposed by the FFMIA. In addition, the Mint provides assurance
that the data reported for all our performance measures is reliable as defined in OMB Circular A-11, Preparation,
Submission, and Execution of the Budget, Section 232.10.
Mint management is responsible for establishing and maintaining adequate internal control over financial reporting,
which includes safeguarding of assets and compliance with laws and regulations. We conducted the required
Treasury evaluation of the effectiveness of Mint internal control over financial reporting in accordance with OMB
Circular A-123, Management’s Responsibility for Internal Control. Based on the results of this evaluation, we can
provide unqualified assurance that internal control over financial reporting as of June 30, 2011, is operating effectively,
and no material weaknesses were found in the design or operation of the internal control over financial reporting.
The 2007 Native American $1 Coin Act (Public Law 110-82), as codified at 31 U.S.C. § 5112(r)(5), requires that
at least 20 percent of all $1 coins minted and issued in any year are Native American $1 Coins. During the 2010
calendar year, Native American $1 Coins made up 20.1 percent of all $1 coins minted but only 12.5 percent of all
$1 coins issued because of low demand. As a result, the Mint did not fully comply with Public Law 110-82. The
balance of 2010 Native American $1 Coins were issued in 2011.
In addition, the Mint is committed to maintaining effective internal control, as demonstrated by the following actions:
• Annual audits of the Mint’s financial statements pursuant to the Chief Financial Officers’ Act, as amended, including
   a) information revealed in preparing the financial statements; b) auditor’s reports on the financial statements;
   and c) internal controls and compliance with laws and regulations and other materials.
• Annual performance plans, reviews, and reports pursuant to the GPRA, which include analysis and evaluation
   of performance measures.
• The development, tracking, and closure of corrective actions identified in the Financial Statement Audit
   and A-123 Assessment.
• Reviews of management programs and financial systems in conjunction with OMB circular A-123, FFMIA,
   Federal Information Security Management Act, and the Computer Security Act of 1987.
• Annual assessments, reviews, and reporting complies with the Improper Payments Elimination and Recovery
   Act of 2010.
The Mint continues to make improvement in maintaining effective internal control over financial reporting and is
committed to monitoring and improving its internal controls throughout the entire organization.
                                                           23
Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of operations
of the Mint, pursuant to the requirements of 31 U.S.C. § 3515(b). The statements have been prepared from the books
and records of the Mint in accordance with generally accepted accounting principles for federal entities and the
formats prescribed by the Office of Management and Budget. The statements are in addition to the financial reports
used to monitor and control budgetary resources, which are prepared from the same books and records. The
statements should be read with the realization that they are for a component of the United States Government.




                                                       24
Message from the Acting Chief Financial Officer:

I am pleased to present the Mint’s financial statements in the FY 2011 Annual Report. As an organization, our
priority is to report accurate financial data while objectively and consistently executing our fiscal responsibilities
in a timely manner. For FY 2011, our independent auditors rendered [an unqualified opinion] on our financial
statements presented herein. The Mint remains committed to accountability and integrity in our financial and
management responsibilities.
The annual assessment of internal controls and financial statement audit are key elements to successful stewardship
of the PEF. In FY 2011, the Mint conducted a comprehensive assessment of the effectiveness of internal controls
over financial reporting. Based on the results, we can provide unqualified assurance that internal controls over
financial reporting are operating effectively in accordance with Office of Management and Budget Circular A-123.
At the close of FY 2011, the PEF is in healthy condition because our program earnings and our stewardship ensures
sufficient cash reserves for continued financing of circulating operations in an uncertain environment. In FY 2011,
our numismatic and bullion product lines exceeded our revenue and earnings expectations. Seigniorage generated
from circulating coins increased from last year largely due to the $1 coin denomination. Minting and issuing the
penny and nickel denominations resulted in a loss of approximately $116.7 million in FY 2011, the sixth consecutive
year the penny and nickel were produced at a loss. We expect the FRB demand for these denominations to increase
in the near future. In addition, the level of $1 coin inventory at the FRB has raised uncertainty about future demand
for new production of this denomination. In response to these uncertainties to our cash flow from circulating
operations, we held cash in reserve and limited the transfer to the Treasury General Fund to $51.0 million during this
fiscal year. Despite these challenges, the Mint’s internal controls and effective stewardship provided a firm footing
for us to continue fulfilling our mission while working with our stakeholders to improve results.
The Mint carried out a number of operational improvements in FY 2011. We implemented a new SG&A allocation
approach, which provides that every product we make carries the appropriate amount of SG&A relative to the effort
to manufacture, market, and distribute it. We also began using a new budget formulation system, which makes
planning our expenses more efficient and effective. We achieved three out of five small business procurement goals
towards a Presidential initiative – allocating 47.7 percent of eligible procurement dollars to small businesses, small
disadvantaged businesses, and women-owned small businesses, compared to a 27.5 percent collective target.
We just missed goals for HUBZone and service-disabled veteran-owned small business dollars – allocating 2.0
percent of eligible dollars versus the 3.0 percent target. We also contributed to another initiative – to reduce the
Federal Government’s carbon footprint – by obtaining Energy Star certification for our Headquarters building.
The Mint prepared its financial statements in compliance with accounting standards issued by the Federal Accounting
Standards Advisory Board (FASAB). The FASAB is designated by the American Institute of Certified Public
Accountants as the standard-setting body for the financial statements of Federal government entities, with respect
to establishment of the United States Generally Accepted Accounting Principles.
The Mint is committed to providing high-quality products and financial results that are complete and understandable
to our stakeholders, the American public. We hope you find our annual report useful and transparent. We look
forward to maintaining our 219-year-old tradition of service to the American public and our collectors in FY 2012.

Sincerely,




David Motl, Acting Chief Financial Officer


                                                           25
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                                         Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Deputy Director
United States Mint:

We have audited the accompanying balance sheets of the United States Mint as of September 30, 2011 and
2010, and the related statements of net cost, changes in net position, and combined statements of budgetary
resources (hereinafter referred to as “financial statements”) for the years then ended. These financial
statements are the responsibility of the United States Mint’s management. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the United States
Mint’s internal control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the United States Mint as of September 30, 2011 and 2010, and its net costs, changes
in net position, and budgetary resources for the years then ended in conformity with U.S. generally
accepted accounting principles.

The information in the Management’s Discussion and Analysis, and Required Supplementary Information,
is not a required part of the financial statements, but is supplementary information required by U.S.
generally accepted accounting principles. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the United States Mint at a Glance, Deputy Director’s Letter, Organizational

                                                                 26


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Profile, Our Goals and Appendix 1: FY 2011 Coin and Medal Products are presented for purposes of
additional analysis and are not required as part of the financial statements. This information has not been
subjected to auditing procedures and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 2,
2011, on our consideration of the United States Mint’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws, regulations, and contracts. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




December 2, 2011




                                                      27
Department of the Treasury United States Mint
BALANCE SHEETS
(dollars in thousands)
                                                                                    As of September 30,
                                                                             2011                         2010


Assets
Intragovernmental:
  Fund Balance with Treasury (Note 3)				                                $   752,742		              $      331,944
  Accounts Receivable, Net (Note 4)				                                          721		                         456
  Advances and Prepayments (Note 5)				                                        2,046		                       3,178
Total Intragovernmental Assets					                                          755,509		                     335,578

 Custodial Gold and Silver Reserves (Note 6)			                            10,493,740		               10,493,740
 Accounts Receivable, Net (Note 4)				                                         18,254		                    7,365
 Inventory (Notes 7 and 20)					                                              501,287		                  451,560
 Supplies							                                                               17,280		                   17,138
 Property, Plant and Equipment, Net (Note 8)			                               185,701		                  190,295
 Advances and Prepayments (Note 5)				                                              1		                        2
Total Non-Intragovernmental Assets				                                   $ 11,216,263		             $ 11,160,100
Total Assets (Notes 2 and 14)					                                       $ 11,971,772		             $ 11,495,678

Heritage Assets (Note 9)

Liabilities
Intragovernmental:
  Accounts Payable						                                                 $    5,890		               $        5,798
  Accrued Workers’ Compensation and Benefits			                               9,377		                        8,857
Total Intragovernmental Liabilities				                                      15,267		                       14,655

 Custodial Liability to Treasury (Note 6)				                              10,493,740		               10,493,740
 Accounts Payable						                                                        44,545		                   32,720
 Surcharges Payable (Note 3)					                                              11,673		                   13,055
 Accrued Payroll and Benefits					                                             18,381		                   17,834
 Other Actuarial Liabilities					                                              27,467		                   26,663
 Unearned Revenue						                                                        16,953		                    1,846
 Deposit Fund Liability (Notes 10 and 12)			                                       94		                       94
Total Non-Intragovernmental Liabilities				                              $ 10,612,853		             $ 10,585,952
Total Liabilities (Notes 10 and 14)				                                  $ 10,628,120		             $ 10,600,607

Commitments and Contingencies (Notes 12, 13 and 20)

Net Position
Cumulative Results of Operations - Earmarked Funds (Note 14)	               1,343,652		                  895,071
Total Liabilities and Net Position				                                   $ 11,971,772		             $ 11,495,678

The accompanying notes are an integral part of these financial statements.




                                                  28
Department of the Treasury United States Mint
STATEMENTS OF NET COST
(dollars in thousands)
                                                                               For the years ended September 30,
                                                                                2011                      2010


Numismatic Production and Sales
 Gross Cost						                                                        $    4,009,361		              $    3,157,758
 Less Earned Revenue (Note 16)				                                           (4,178,594)		                 (3,250,844)
Net Program Cost (Revenue)					                                                (169,233)		                     (93,086)

Numismatic Production and Sales of Circulating Coins
 Gross Cost						                                                                4,685		                        5,740
 Less Earned Revenue (Note 16)				                                              (4,685)		                      (5,740)
Net Program Cost						                                                               –		                            –

Circulating Production and Sales
 Gross Cost						                                                              428,130		                      317,357
 Less Earned Revenue (Note 16)				                                            (428,130)		                    (317,357)
Net Program Cost						                                                               –		                            –

Net Program Cost (Revenue) Before Protection of Assets		                      (169,233)		                     (93,086)

Protection of Assets
 Protection Costs						                                                        41,570		                       41,547
 Less Earned Revenue (Note 16)				                                                  –	  	                         (3)
Net Cost of Protection Assets					                                             41,570		                       41,544

Net Cost (Revenue) from Operations (Notes 15 and 21)		                   $    (127,663)		              $      (51,542)

The accompanying notes are an integral part of these financial statements.




                                                  29
Department of the Treasury United States Mint
STATEMENTS OF CHANGES IN NET POSITION
(dollars in thousands)
                                                                              For the years ended September 30,
                                                                               2011                      2010


Cumulative Results of Operations

Net Position, Beginning of Year - Earmarked Funds (Note 14)	             $    895,071		               $    904,535

Financing Sources (Note 21):
  Transfers to the Treasury General Fund On-Budget (Note 19)		                 (51,000)		                  (13,000)
  Transfers to the Treasury General Fund Off-Budget (Note 19)		                      -		                  (375,000)
  Other Financing Sources (Seigniorage) (Note 16)			                           358,577		                   312,814
  Imputed Financing Sources (Note 11)				                                       13,341		                     14,180
Total Financing Sources					                                                   320,918		                    (61,006)
Net Revenue from Operations (Notes 15 and 21)			                               127,663		                     51,542
Net Position, End of Year - Earmarked Funds (Note 14)		                  $   1,343,652		              $    895,071

The accompanying notes are an integral part of these financial statements.




                                                  30
Department of the Treasury United States Mint
STATEMENTS OF BUDGETARY RESOURCES
(dollars in thousands)
                                                                               For the years ended September 30,
                                                                                2011                      2010


Budgetary Resources
Unobligated balance, brought forward October 1			                        $    110,993		                $     245,683
Recoveries of prior-year unpaid obligations			                                 43,873		                       28,879
Budget authority
 Spending authority from offsetting collections
   Earned
     Collected						                                                       4,969,914		                     3,519,214
     Change in receivable from federal sources			                                  –		                            50
   Change in unfilled customer orders				                                          		
     Advance received					                                                    15,107		                         136
     Without advance from federal sources			                                    (903)		                        792
   Subtotal						                                                          4,984,118		                   3,520,192
Permanently not available					                                               (51,000)		                    (13,000)
Total Budgetary Resources					                                           $ 5,087,984		                 $ 3,781,754

Status of Budgetary Resources
Obligations incurred
  Reimbursable (Note 17 and Note 21)				                                 $   4,674,890		               $   3,670,761
Unobligated balances
 Apportioned						                                                             413,094		                     110,993
Total Status of Budgetary Resources				                                  $   5,087,984		               $   3,781,754

Change in Obligated Balances
Obligated balance, net
  Unpaid obligations, brought forward, October 1			                      $    228,454		                $     190,523
  Less: Uncollected customer payments from federal sources,
	         brought forward, October 1				                                       (7,598)		                      (6,755)
  Total unpaid obligated balance, net				                                     220,856		                      183,768

Obligations incurred, net (Note 17)				                                       4,674,890		                   3,670,761
Gross outlays						                                                          (4,513,223)		                 (3,603,950)
Recoveries of prior-year unpaid obligations, actual			                           (43,873)		                    (28,879)
Change in uncollected customer payments from federal sources	                        903		                        (842)
Obligated balance, net, end of the period
 Unpaid obligations						                                                     346,248		                      228,454
 Uncollected customer payments from federal sources		                          (6,694)		                      (7,598)
 Total unpaid obligated balance, net, end of period			                        339,554		                      220,856

Net Outlays
Net outlays
 Gross outlays						                                                        4,513,223		                   3,603,950
 Collections						                                                         (4,985,021)		                 (3,519,349)
Total Outlays						                                                      $   (471,798)		               $     84,601

The accompanying notes are an integral part of these financial statements.




                                                  31
Notes to the Financial Statements
For the Years Ended September 30, 2011 and 2010


         1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
         REPORTING ENTITY Established in 1792, the United States Mint (Mint) is a bureau of the
         Department of the Treasury (Treasury). The mission of the Mint is as follows: To manufacture and
         distribute circulating coins, precious metals and collectible coins, and national medals to meet the
         needs of the United States. Numismatic products include medals; proof coins; uncirculated coins;
         platinum, gold, and silver bullion coins; commemorative coins; and related products or accessories.
         Custodial assets consist of the Treasury-owned gold and silver bullion reserves. These custodial
         reserves are often referred to as “deep storage” and “working stock,” and are reported on the
         Balance Sheet.
         The production of numismatic products is financed through sales to the public. The production of
         circulating coinage is financed through sales of coins at face value to the Federal Reserve Banks
         (FRB). Additionally, the Mint sells certain circulating products directly to the public as numismatic
         items. Activities related to protection of Treasury-owned custodial assets are funded by the United
         States Mint Public Enterprise Fund (PEF).
         Pursuant to Public Law 104-52, Treasury, Postal Service, and General Government Appropriation Act
         for FY 1996, as codified at 31 U.S.C. § 5136, the PEF was established to account for all receipts and
         expenses related to production and sale of numismatic items and circulating coinage, as well as
         protection activities. Expenses accounted for in the PEF include the entire cost of operating the Mint.
         Any amount in the PEF that is determined to be in excess of the amount required by the PEF is
         transferred to the Treasury General Fund.
         Treasury’s Bullion Fund (Bullion Fund) is used to account for Treasury-owned gold and silver reserves.
         A separate Schedule of Custodial Deep Storage Gold and Silver Reserves has been prepared for the deep
         storage portion of the Treasury-owned gold and silver reserves for which the Mint acts as custodian.
         BASIS OF ACCOUNTING AND PRESENTATION The accompanying financial statements were
         prepared based on the reporting format promulgated by Office of Management and Budget (OMB)
         Circular A-136, Financial Reporting Requirements, and in accordance with accounting standards issued
         by the Federal Accounting Standards Advisory Board (FASAB). The Mint’s financial statements have
         been prepared to report the financial position, net cost of operations, changes in net position, and
         budgetary resources, as required by 31 U.S.C. § 5134.
         Management uses estimates and assumptions in preparing financial statements. Those estimates and
         assumptions affect the reported amounts of assets and liabilities, the disclosure of contingent assets
         and liabilities, and the reported revenues and expenses. Actual results could differ from those
         estimates. Accounts subject to estimates include, but are not limited to, depreciation, imputed costs,
         payroll and benefits, accrued worker’s compensation, allowance for uncollectible accounts receivable,
         and unemployment benefits.
         The accompanying financial statements have been prepared on the accrual basis of accounting. Under
         the accrual method, revenues and other financing sources are recognized when earned and expenses are
         recognized when a liability is incurred, without regard to receipt or payment of cash.




                                                     32
EARNED REVENUES AND OTHER FINANCING SOURCES (SEIGNIORAGE)
Numismatic Sales: Revenue from numismatic sales to the public is recognized when products are
shipped to customers. Prices for most numismatic products are based on the product cost plus a
reasonable net margin. Bullion coins are priced based on the market price of the precious metals plus
a premium to cover manufacturing, marketing, and distribution costs.
Numismatic Sales of Circulating Coins: Specially packaged products containing circulating coins sold
directly to the public rather than to the FRB. These products are treated as a circulating and numismatic
hybrid product. Revenue is recognized when products are shipped to customers.
Circulating Sales: The PEF provides for the sale of circulating coinage at face value to the FRB.
Revenue from the sale of circulating coins is recognized when the product is shipped to the FRB.
Revenue from the sale of circulating coins to the FRB and numismatic sales of circulating coins to
the public is limited to the recovery of the cost of manufacturing, and distributing those coins.
Other Financing Source (Seigniorage): Seigniorage equals the face value of newly minted coins less
the cost of production (which includes the cost of metal, manufacturing, and transportation). Seigniorage
adds to the government’s cash balance, but unlike the payment of taxes or other receipts, it does
not involve a transfer of financial assets from the public. Instead, it arises from the exercise of the
government’s sovereign power to create money and the public’s desire to hold financial assets in the
form of coins. Therefore, the President’s budget excludes seigniorage from receipts and treats it as a
means of financing. Seigniorage is recognized when coins are shipped to the FRB in return for
deposits to the PEF.
Rental Revenue: The Mint sublets office space at cost to other federal entities in the two leased
buildings in Washington, D.C. In addition, a commercial vendor subleases a portion of the first floor
space of the building at 801 9th Street, NW.
FUND BALANCE WITH TREASURY All cash is maintained at the Treasury. Fund Balance with
Treasury is the aggregate amount of the Mint’s cash accounts with the United States Government’s
central accounts and from which the Mint is authorized to make expenditures. It is an asset because it
represents the Mint’s claim to United States Government resources.
ACCOUNTS RECEIVABLE Accounts receivable are amounts due to the Mint from the public and
other federal entities. An allowance for uncollectible accounts receivable is established for all accounts
that are more than 180 days past due. However, the Mint will continue collection action on those
accounts that are more than 180 days past due, as specified by the Debt Collection Improvement
Act of 1996.
INVENTORIES Inventories of circulating and numismatic coinage are valued at either cost or market,
whichever is lower. Costs of the metal and fabrication components of the inventories are determined
using a weighted average inventory methodology. Conversion costs (i.e., the cost to convert the
fabricated blank into a finished coin) are valued using a standard cost methodology. The Mint
uses three classifications for inventory: raw material (raw metal, unprocessed coil, or blanks);
work-in-process (WIP – material being transformed to finished coins); and finished goods (coins
that are packaged or bagged and ready for sale or shipment to the public or the FRB).




                                            33
TREASURY-OWNED CUSTODIAL GOLD AND SILVER BULLION RESERVES Treasury-
owned gold and silver reserves consist of both “deep storage” and “working stock” gold and silver.
Deep Storage is defined as that portion of the Treasury-owned gold and silver bullion reserve which
the Mint secures in sealed vaults. Deep storage gold comprises the vast majority of the bullion reserve
and consists primarily of gold bars. Deep storage silver is also primarily in bar form.
Working Stock is defined as that portion of the Treasury-owned gold and silver bullion reserve which
the Mint can use as the raw material for minting coins. Working stock gold comprises only about one
percent of the gold bullion reserve and consists of bars, blanks, unsold coins, and condemned coins.
Similarly, working stock silver consists of bars, blanks, unsold coins, and condemned coins.
Treasury allows the Mint to use some of its gold as working stock in the production of gold coins. This
allows the Mint to avoid the market risk associated with buying gold far in advance of the sales date
of the gold coins. The Mint replenishes the Treasury gold working stock at or just prior to the time the
coins are sold. Generally, the Mint does not deplete the working stock used in production. Instead, the
Mint will purchase a like amount of gold on the open market to replace the working stock used.
Treasury also allows the Mint to use silver as working stock. However, Treasury does not have enough
silver to fulfill all Mint manufacturing needs. Accordingly, for the purpose of avoiding market risk
associated with owning silver, the Mint has entered into a silver hedging arrangement (see Note 20).
The Mint did not use Treasury silver working stock; if the Mint were to use Treasury silver working
stock, the stock would be replenished as it is used.
In the rare cases in which gold or silver is depleted, the Mint reimburses Treasury the current market
value of the gold or silver depleted. In FY 2011 and 2010, the Mint did not deplete the working stock.
SUPPLIES Supplies are items that are not considered inventory and are not a part of the finished
product. These items include plant engineering and maintenance supplies, as well as die steel and coin
dies. Supplies are accounted for using the consumption method, in which supplies are recognized as
assets upon acquisition and expensed as they are consumed.
ADVANCES AND PREPAYMENTS Payments in advance of the receipt of goods and services
are recorded as an asset at the time of prepayment, and are expensed when related goods and
services are used.
PROPERTY, PLANT AND EQUIPMENT Property, plant, and equipment are valued at cost less
accumulated depreciation. The Mint’s threshold for capitalizing new property, plant, and equipment
is $25,000 for single purchases and $500,000 for bulk purchases. Depreciation is computed on a
straight-line basis over the estimated useful lives of the related assets as follows:
	Computer Equipment					3 to 5 years
	Software							2 to 10 years
	Machinery and Equipment					                          7 to 20 years
	Structures, Facilities, and Leasehold Improvements			 10 to 30 years

Major alterations and renovations are capitalized over a 20-year period, or the remaining useful life of
the asset (whichever is shorter) and depreciated using the straight-line method, while maintenance and
repair costs are charged to expense as incurred. There are no restrictions on the use or convertibility of
general property, plant, and equipment.
HERITAGE ASSETS Heritage assets are items that are unique because of their historical, cultural,
educational or artistic importance. These items are collection-type assets that are maintained for
exhibition and are preserved indefinitely.


                                            34
Liabilities Liabilities represent actual and estimated amounts likely to be paid as a result of
transactions or events that have already occurred. All liabilities covered by budgetary resources can
be paid from revenues received by the PEF.
SURCHARGES Legislation authorizing commemorative coin programs often requires that the sales
price of each coin include an amount, called a surcharge, which is authorized to provide funds to a
qualifying organization or group of organizations for the purposes specified. A surcharges payable
account is established for surcharges collected, but not yet paid, to designated recipient organizations.
Recipient organizations cannot receive surcharge payments unless all of the Mint’s operating costs
for the coin program are fully recovered. The Mint may make interim surcharge payments during a
commemorative program if the recipient organization meets the eligibility criteria in the authorizing
legislation, if the recovery of all costs of the program is determinable, and if the Mint is assured it is
not at risk of a loss. Additionally, recipient organizations must demonstrate that they have raised from
private sources an amount equal to or greater than the surcharges collected based on sales, and recipient
organizations must prove compliance with Title VI of the Civil Rights Act of 1964. A recipient
organization has two years from the end of the program to meet the matching requirement.
EARMARKED FUNDS Pursuant to 31 U.S.C. § 5136, the PEF was established as the sole funding
source for Mint activities. The PEF meets the requirements of an earmarked fund as defined in
Statement of Federal Financial Accounting Standard (SFFAS) 27, Identifying and Reporting Earmarked
Funds. As non-entity and non-PEF assets, the Treasury-owned gold and silver bullion reserves are not
considered to be earmarked funds.
UNEARNED REVENUES These are amounts received for numismatic orders which have not yet
been shipped to the customer.
RETURN POLICY If for any reason a numismatic customer is dissatisfied, the entire product must
be returned within seven days of receiving the order to receive a refund or replacement. Shipping
charges are not refunded. Further, the Mint will not accept partial returns or issue partial refunds.
Historically, the Mint receives few returns, which are immaterial. Therefore, no reserve for returns
is considered necessary.
SHIPPING AND HANDLING The Mint reports shipping and handling costs of circulating coins and
numismatic products as a cost of goods sold. General postage costs for handling administrative mailings
are reported as part of the Mint’s general and administrative expenses.
ANNUAL, SICK AND OTHER LEAVE Annual leave is accrued when earned and reduced as leave
is taken. The balance in the accrued leave account is calculated using current pay rates. Sick leave and
other types of non-vested leave are charged to operating costs as they are used.
ACCRUED WORKERS’ COMPENSATION AND OTHER ACTUARIAL LIABILITIES The
Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to cover
Federal civilian employees injured on the job or who have developed a work-related occupational
disease, and to pay beneficiaries of employees whose deaths are attributable to job-related injuries
or occupational disease. The FECA program is administered by the United States Department
of Labor (DOL), which pays valid claims and subsequently seeks reimbursement from the Mint for
these paid claims.




                                            35
The FECA liability is based on two components. The first component is based on actual claims paid by
DOL but not yet reimbursed by the Mint. There is generally a two- to three-year time period between
payment by DOL and DOL’s requesting payment from the Mint. The second component is the actuarial
liability, which estimates the liability for future payments as a result of past events. The actuarial
liability includes the expected liability for death, disability, medical and miscellaneous costs for
approved compensation cases.
PROTECTION COSTS Treasury-owned gold and silver reserves are in the custody of the Mint,
which is responsible for safeguarding the reserves. These costs are borne by the Mint, but are not
directly related to the circulating or numismatic coining operations of the United States Mint.
The Protection Department is a separate function from coining operations and is responsible for
safeguarding the reserves as well as Mint employees and facilities.
OTHER COST AND EXPENSES (MUTILATED AND UNCURRENT) Other costs and expenses
consist primarily of returns of mutilated or uncurrent coins to the Mint. Coins that are chipped, fused,
and/or not machine-countable are considered mutilated. The Mint reimburses the entity that sent in the
mutilated coins, using weight formulas that estimate the face value of these coins. Uncurrent coins are
worn, but machine-countable, and their genuineness and denominations are still recognizable. Uncurrent
coins are replaced with new coins of the same denomination by the FRB. The FRB then seeks
replacement coins from the Mint. All mutilated or uncurrent coins received by the Mint are sold to its
fabrication contractors to be processed into coils or blanks to be used in future coin production.
TAX EXEMPT STATUS As a bureau of the Federal Government, the Mint is exempt from all
taxes imposed by any governing body, whether it is a federal, state, commonwealth, local, or
foreign government.
CONCENTRATIONS The Mint purchases the coil and blanks used in the production of circulating
coins from three vendors at competitive market prices. The Mint also purchases precious metal blanks
from four different suppliers.
Contingent Liabilities Certain conditions exist as of the date of the financial statements that
may result in a loss to the government, but which will be resolved only when one or more future
events occur or fail to occur. The Mint recognizes a loss contingency when the future outflow or other
sacrifice of resources is probable and reasonably estimable. Loss contingencies that are determined by
management to have a reasonably possible chance of occurring or that cannot be estimated are included
as a footnote to the financial statements. Contingent liabilities considered remote are generally not
disclosed unless they involve guarantees, in which case the nature of the guarantee is disclosed.
TRANSFERS TO THE TREASURY GENERAL FUND The Mint transfers amounts determined to
be in excess of the amounts required for Mint operations and programs to the Treasury General Fund
periodically throughout the fiscal year.
Seigniorage derived from the sale of circulating coins and net income from the revenues generated by
the sale of numismatic products containing circulating coins is an off-budget receipt to the Treasury
General Fund. Off-budget means that these funds cannot be used to reduce the annual budget deficit.
Instead, they are used as a financing source (i.e., they reduce the amount of cash that Treasury has to
borrow to pay interest on the national debt).
Revenues generated from the sale of numismatic products are transferred to the Treasury General Fund
as an on-budget receipt. Unlike seigniorage, the numismatic transfer amount is available to the Federal
Government as current operating cash or it can be used to reduce the annual budget deficit.


                                            36
BUDGETARY RESOURCES The Mint does not receive an appropriation from the Congress. Instead,
the Mint receives all financing from the public and the FRB, and receives an apportionment of those
funds from OMB. This apportionment is considered a budgetary authority, which allows the Mint to
spend the funds. The Mint’s budgetary resources consist of unobligated balances, transfers, and
spending authority from offsetting collections, which is net of amounts that are permanently not
available. “Permanently not available” funds are on-budget transfers to the General Fund.
Hedging The Mint engages in a hedging program to avoid fluctuation in silver costs as a result of
the changes in market prices. The Mint purchases silver in large quantities and sells an interest in that
silver to a trading partner, while maintaining physical custody and title to the silver. Sales of silver to
the trading partner are made at the same spot price that the Mint paid to obtain the silver on the open
market. The partner’s interest in Mint silver is reduced as finished silver bullion coins are sold to
authorized purchasers (APs). Repurchases of the trading partner’s interest in the silver occurs upon sale
of coins by the Mint. Repurchases are made on the same day as sales, in the same quantity sold, and
using the same spot price as was used for the sale to the AP. Each sale to and from the trading partner
carries a small transaction fee, the selling and buying fees net to a cost of one-half cent per ounce.
The Mint incurred $217 thousand in hedging fees in FY 2011, compared to $170 thousand incurred
in FY 2010.
RECLASSIFICATIONS Certain amounts have been reclassified to conform to the September 30,
2011 presentation.
2. NON-ENTITY ASSETS
Components of Non-entity Assets as of September 30 are as follows:
(dollars in thousands)				                    2011			        2010
Custodial Gold Reserves (Deep Storage)			   $ 10,355,539		 $ 10,355,539
Custodial Silver Reserves (Deep Storage)			        9,148		        9,148
Custodial Gold Reserves (Working Stock)			       117,514		      117,514
Custodial Silver Reserves (Working Stock)		       11,539		       11,539
Total Non-entity Assets				                   10,493,740		   10,493,740
Total Entity Assets					                       1,478,032		    1,001,938
Total Assets					$ 11,971,772		$ 11,495,678

Entity assets are assets that the reporting entity has authority to use in its operations. Mint management
has legal authority to use entity assets to meet entity obligations. Treasury-owned gold and silver
bullion reserves, for which the Mint is custodian, are non-entity assets.
3. FUND BALANCE WITH TREASURY
Fund Balance with Treasury as of September 30 consists of the following:
(dollars in thousands)				            2011			      2010
Revolving Fund					$ 752,648			$ 331,850
Other						                                94			        94
Total Fund Balance with Treasury			 $ 752,742			 $ 331,944

Status of Fund Balance with Treasury
Unobligated Balance					$ 413,094			$ 110,993
Obligated Balance, Not Yet Disbursed			   339,554			   220,857	
Non-Budgetary FBWT				                         94			        94
Total						                             $ 752,742			 $ 331,944




                                            37
The Mint does not receive appropriated budget authority. The Fund Balance with Treasury is entirely
available for use to support United States Mint operations. At September 30, 2011 and 2010, the
revolving fund balance included $11.7 million and $13.1 million, respectively, in restricted amounts
for possible payment of surcharges to recipient organizations.
4. ACCOUNTS RECEIVABLE, NET
Components of accounts receivable are as follows:
(dollars in thousands)				              September 30, 2011
				Gross Receivables		Allowance	Net Receivables
Intragovernmental			        $ 6,667			       ($5,946)		    $    721
With the Public			            18,866			         (612)		      18,254
Total Accounts Receivable		 $ 25,533			      ($6,558)		    $ 18,975

						                                  September 30, 2010
				Gross Receivables		Allowance	Net Receivables
Intragovernmental			        $ 6,402			       ($5,946)		    $   456
With the Public			             9,055			       (1,690)		      7,365
Total Accounts Receivable		 $ 15,457			      ($7,636)		    $ 7,821

The intragovernmental accounts receivable as of September 30, 2011 and 2010 was $6.6 million and
$6.4 million, respectively. This largely represents amounts due to the Mint for a joint numismatic
product with another federal entity. Management determined that the collection of $5.9 million related
to the program was in doubt and has included that amount in the allowance for doubtful accounts.
Receivables with the public at September 30, 2011 are $18.9 million, of which $13.4 million is owed
by fabricators for scrap and webbing, in addition to amounts owed by the public for numismatic products.
This compares to receivables with the public at September 30, 2010, of $9.1 million, of which $6.1
million was owed by fabricators for scrap and webbing, in addition to amounts owed by the public for
numismatic products. The allowance for doubtful accounts is the balance of the accounts receivable
with the public that is past due by 180 days or more. Collection action continues on these accounts,
but an allowance is recorded.
5. ADVANCES AND PREPAYMENTS
The components of advances and prepayments as of September 30 are as follows:
(dollars in thousands)				          2011			    2010
Intragovernmental					$ 2,046			$ 3,178
With the Public					                    1			       2
Total Advances and Prepayments			 $ 2,047			 $ 3,180

Intragovernmental advances and prepayments as of September 30, 2011 and 2010 include $1.5 million
and $1.7 million, respectively, that the Mint paid the Treasury Working Capital Fund for a variety of
centralized services. The remaining balance of approximately $500 thousand represents payments
made to the United States Postal Service for product delivery services as of September 30, 2011,
compared to approximately $1.4 million paid at September 30, 2010. Advances with the public
for both FY 2011 and 2010 are outstanding travel advances to Mint employees who were traveling
on government business.




                                           38
6. CUSTODIAL GOLD AND SILVER BULLION RESERVES
As custodian, the Mint is responsible for safeguarding much of the Treasury-owned gold and silver
bullion reserves, which include deep storage and working stock. The asset and the custodial liability to
Treasury are reported on the Balance Sheet at statutory rates. In accordance with 31 U.S.C. § 5117(b)
and 31 U.S.C. § 5116(b)(2), statutory rates of $42.2222 per fine troy ounce (FTO) of gold and no less
than $1.292929292 per FTO of silver are used to value the entire custodial reserves held by the Mint.
The market value for gold and silver as of September 30 is determined by the London Gold Fixing
(PM) rate. Amounts and values of custodial gold and silver in custody of the United States Mint as
of September 30 are as follows:
						 2011			 2010
Gold - Deep Storage:
  Inventories (FTO)					                            245,262,897		   245,262,897
  Market Value ($ per FTO)				                    $    1,620.00		 $    1,307.00
  Market Value ($ in thousands)			                $ 397,325,893		 $ 320,558,606
  Statutory Value ($ in thousands)			             $ 10,355,539		  $ 10,355,539
Gold - Working Stock:
  Inventories (FTO)					                              2,783,219		     2,783,219
  Market Value ($ per FTO)				                    $    1,620.00		 $    1,307.00
  Market Value ($ in thousands)			                $ 4,508,815		   $ 3,637,667
  Statutory Value ($ in thousands)			             $     117,514		 $     117,514
Silver - Deep Storage:
  Inventories (FTO)					                              7,075,171		     7,075,171
  Market Value ($ per FTO)				                    $       30.45		 $       22.07
  Market Value ($ in thousands)			                $     215,439		 $     156,149
  Statutory Value ($ in thousands)			             $       9,148		 $       9,148
Silver - Working Stock:
  Inventories (FTO)					                              8,924,829		     8,924,829
  Market Value ($ per FTO)				                    $       30.45		 $       22.07
Market Value ($ in thousands)				                 $     271,761		 $     196,971
Statutory Value ($ in thousands)			               $      11,539		 $      11,539
Total Market Value of Custodial Gold
	          and Silver Reserves ($ in thousands)		 $ 402,321,908		 $ 324,549,393
Total Statutory Value of Custodial Gold
	          and Silver Reserves ($ in thousands)		 $ 10,493,740		  $ 10,493,740




                                           39
7. INVENTORY
The components of inventories as of September 30 are summarized below:
(dollars in thousands)				          2011			    2010
Raw Materials					$ 322,484			$ 243,903
Work-In-Process					                 87,754			 109,933
Inventory held for current sale				  91,049			  97,724
Total Inventory					$ 501,287			$ 451,560

Raw materials consist of unprocessed materials and by-products of the manufacturing process and the
metal value of unusable inventory, such as scrap or condemned coins, which will be recycled into a
usable raw material. In addition, as of September 30, 2011 and 2010, the raw material inventory
includes $247.7 million and $111.4 million, respectively, the market value of the silver hedged.
Additional information can be found in note 20. Work-in-process consists of semi-finished materials.
8. PROPERTY, PLANT AND EQUIPMENT, NET
Components of property, plant and equipment are as follows:
(dollars in thousands)				                September 30, 2011			
				Asset Cost	Accumulated Depreciation	Total Property, Plant
						and Amortization		and Equipment, Net
Land				                   $ 2,529		   $        -		          $   2,529
Structures, Facilities and
  Leasehold Improvements		   225,500		   (148,387)		            77,113
Computer Equipment		          31,235		    (28,052)		             3,183
Software				                  15,893		    (15,051)		               842
Construction-In-Progress		    12,875		          -		             12,875
Machinery and Equipment		    282,256		   (193,097)		            89,159
Total Property, Plant
  and Equipment, Net		     $ 570,288		  ($384,587)		         $ 185,701

(dollars in thousands)				                September 30, 2010			
				Asset Cost	Accumulated Depreciation	Total Property, Plant
						and Amortization		and Equipment, Net
Land				                   $ 2,529		   $        –		          $   2,529
Structures, Facilities and
  Leasehold Improvements		   217,840		   (141,780)		            76,060
Computer Equipment		          30,229		    (28,332)		             1,897
Software				                  19,136		    (18,014)		             1,122
Construction-In-Progress		     9,305		          –		              9,305
Machinery and Equipment		    275,091		   (175,709)		            99,382
Total Property, Plant
  and Equipment, Net		     $ 554,130		  ($363,835)		         $ 190,295


The land and buildings used to manufacture circulating coinage and numismatic products are owned
by the Mint and located in Philadelphia, Denver, San Francisco, and West Point. In addition, the Mint
owns the land and buildings at the United States Bullion Depository at Fort Knox. Construction-In-
Progress (CIP) represents assets that are underway, such as in the process of being readied for use, or
which are being tested for acceptability, but which are not yet being fully utilized by the Mint and,
therefore, not being depreciated.
Depreciation and amortization expenses charged to operations during the years ended September 30,
2011 and 2010, were $29.5 million and $32.7 million, respectively.



                                           40
9. HERITAGE ASSETS
The Mint maintains collections of heritage assets which are any property, plant, or equipment that is
retained by the Mint for its historic, natural, cultural, educational or artistic value, or significant
architectural characteristics. For example, the Mint’s historical artifacts contain, among other things,
examples of furniture and equipment used in the Mint facilities over the years, as well as examples
of the coin manufacturing process, such as plasters, galvanos, dies, punches, and actual finished coins.
The coin collections include examples of the various coins produced by the Mint over the years,
separated into collections of pattern pieces/prototypes, coin specimens, quality samples, and exotic
metal coin samples. The buildings housing the Mint at Denver, West Point, San Francisco, and Fort
Knox are all considered multi-use heritage assets. The Mint generally does not place a value on heritage
assets, even though some of the coins and artifacts are priceless. However, the assets are accounted for
and controlled for protection and conservation purposes. Heritage assets held by the Mint are generally
in acceptable physical condition. The following chart represents the Mint’s various collections and
historical artifacts.


Coin Collections					         Quantity of Collections Held September 30,
						 2011			 2010
Pattern Pieces/Prototypes				 1			                           1
Coin Specimens					           1			                           1
Quality Samples					          1			                           1
Exotic Metal Coin Samples				 1			                           1
Total						                   4			                           4

Historical Artifacts					 Quantity of Collections Held September 30,
						 2011			 2010
Antiques/Artifacts					       1			                       1
Plasters						                1			                       1
Galvanos						                1			                       1
Dies						                    1			                       1
Punches						                 1			                       1
Historical Documents				      1			                       1
Multi-use heritage asset				  4			                       4
Total						                  10			                      10

10. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
Components of Liabilities Not Covered by Budgetary Resources as of September 30 are as follows:
(dollars in thousands)				                              2011			        2010
Custodial Gold Reserves (Deep Storage)			             $ 10,355,539		 $ 10,355,539
Custodial Silver Reserves (Deep Storage)			                  9,148		        9,148
Working Stock Inventory - Gold			                          117,514		      117,514
Working Stock Inventory - Silver			                         11,539		       11,539
Other						                                                     94		           94
Total Liabilities Not Covered by Budgetary Resources	 $ 10,493,834		 $ 10,493,834
Total Liabilities Covered by Budgetary Resources		         134,286		      106,773
Total Liabilities					$ 10,628,120		$ 10,600,607

Liabilities not covered by budgetary resources represent the Mint’s custodial liabilities to the Treasury
that are entirely offset by Treasury-owned gold and silver bullion reserves held by the Mint on behalf
of the federal government. The category “Other” represents a refundable security deposit related
to a lease.




                                            41
11. RETIREMENT PLANS, OTHER POST-EMPLOYMENT COSTS AND OTHER
IMPUTED COSTS
The Mint contributes seven percent of basic pay for employees participating in the Civil Service
Retirement System (CSRS). Most employees hired after December 31, 1983, are automatically covered
by the Federal Employees’ Retirement System (FERS) and Social Security. A primary feature of FERS
is that it offers a savings plan to which the Mint automatically contributes one percent of basic pay and
matches employee contributions up to an additional 4 percent of basic pay. Employees can contribute
a specific dollar amount or a percentage of their basic pay, as long as the annual dollar total does not
exceed the Internal Revenue Code limit of $16,500 for calendar year 2011 (a $5,500 catch-up
contribution can be given by participants age 50 and older). Employees participating in FERS are
covered by the Federal Insurance Contribution Act (FICA), for which the Mint contributes a matching
amount to the Social Security Administration.
Although the Mint contributes a portion for pension benefits and makes the necessary payroll
deductions, it is not responsible for administering either CSRS or FERS. Administering and reporting
on pension benefit programs are the responsibility of the Office of Personnel Management (OPM).
OPM has provided the Mint with certain cost factors that estimate the cost of providing the pension
benefit to current employees. The cost factors of 30.1 percent of basic pay for CSRS-covered employees
and 13.8 percent of basic pay for FERS-covered employees were in use for FY 2011. The CSRS and
FERS factors were the same in FY 2010 to FY 2011.
The amounts that the Mint contributed to the retirement plans and social security for the year ended
September 30 are as follows:
(dollars in thousands)				                               2011			                   2010
Social Security System				                             $ 7,230			                 $ 7,437
Civil Service Retirement System			                        1,276			                  1,514
Federal Employees Retirement System
  (Retirement and Thrift Savings Plan)			                12,722			                  12,157
Total Retirement Plans and Other Post-employment Cost	 $ 21,228			                $ 21,108

The Mint also recognizes its share of the future cost of pension payments and post-retirement health
and life insurance benefits for employees while they are still working with an offset classified as
imputed financing. OPM continues to report the overall liability of the Federal Government and make
direct recipient payments. OPM has provided certain cost factors that estimate the true cost of providing
the post-retirement benefit to current employees. The cost factors relating to health benefits are $6,027
and $5,906 per employee enrolled in the Federal Employees Health Benefits Program in FY 2011 and
FY 2010, respectively. The cost factor relating to life insurance is two-one hundredths percent (.02
percent) of basic pay for employees enrolled in the Federal Employees Group Life Insurance Program
for both FY 2011 and FY 2010.
The amount of imputed cost related to retirement plans and other post-employment costs incurred by
the Mint for the year ended September 30 is as follows (before the offset for imputing financing):
(dollars in thousands)				                               2011			                    2010
Health Benefits					                                   $ 8,673			                 $ 8,748
Life Insurance					                                          26			                      21
Pension Expense					                                      4,372			                   5,411
Total Imputed Retirement and Postemployment Costs	     $ 13,071			                $ 14,180




                                            42
In addition to the pension and retirement benefits described above, the United States Mint also records
imputed costs and financing for Treasury Judgment Fund payments made on behalf of the bureau.
Entries are made in accordance with FASAB Interpretation No. 2. For FY 2011 entries for Judgment
Fund payments totaled $270 thousand (Other Funds). For FY 2010, there we no payments by the
Judgment Fund on behalf of the Unites States Mint.
12. LEASE COMMITMENTS
THE MINT AS LESSEE: The Mint leases office and warehouse space from commercial vendors,
the General Services Administration (GSA), and the Bureau of Engraving and Printing. In addition,
the bureau leases copier and other office equipment from commercial vendors and vehicles from GSA.
With the exception of the commercial leases on two office buildings in Washington, D.C., all leases
are one-year, or one-year with renewable option years. The two building leases in Washington, D.C.
have terms of 20 and 10 years. One of the building leases will not be renewed and will be cancelled
on October 31, 2011. Because all of the Mint’s leases can be canceled, there are no minimum lease
payments due.
THE MINT AS LESSOR: The Mint sublets office space at cost to several other federal entities in
the two leased buildings in Washington, D.C. These subleases vary from one year with option years
to multiple-year terms. As of September 30, 2011, the Mint sublet in excess of 209,000 square feet in
the two leased buildings. Tenants include the Internal Revenue Service, Treasury Executive Institute,
Bureau of the Public Debt, U.S. Customs and Border Protection, and U.S. Marshals Service. Starting
October 31, 2011, the lease of space in the building at 799 9th Street, NW, containing 149,647 square
feet, was not renewed. All of the subleases are operating leases and subject to annual availability
of funding. The Mint has also entered into an agreement to sublet space in the Headquarters building
to a commercial tenant. The Mint received a security deposit from the tenant of $94,500.
Future Projected Receipts (dollars in thousands):	        Building Sub-lease

Year 2 (FY 2012)					                                          302,400

Year 3 (FY 2013)					                                          378,000

Year 4 (FY 2014)					                                          378,000

Year 5 (FY 2015)					                                          378,000

Years 6-9 (FY 2016 - FY 2019)			                              1,617,840

Total Future Operating Lease Receipts		                     $ 3,054,240

13. CONTINGENCIES
The Mint is subject to legal proceedings and claims which arise in the ordinary course of its business.
Judgments, if any, resulting from pending litigation against the Mint generally would be satisfied from
the PEF. Likewise, under the Notification and Federal Employee Antidiscrimination and Retaliation
Act of 2002 (No FEAR Act, P. L. 107-174), settlements and judgments related to acts of discrimination
and retaliation for whistle blowing will be paid from the PEF. In the opinion of management, the
ultimate resolution of these actions will not materially affect the Mint’s financial position or the results
of its operations.
The Chief Counsel of the United States Mint provided a Legal Representation Letter reflecting no
expected material loss resulting from pending legal cases.




                                                     43
14. EARMARKED FUNDS
Pursuant to 31 U.S.C. § 5136, “all receipts from Mint operations and programs, including the production
and sale of numismatic items, the production and sale of circulating coinage at face value to the FRB,
the protection of government assets, and gifts and bequests of property, real or personal shall be
deposited into the PEF and shall be available to fund its operations without fiscal year limitations.”
The PEF meets the requirements of an earmarked fund as defined in SFFAS 27, Identifying and
Reporting Earmarked Funds. As non-entity and non-PEF assets, the Treasury-owned gold and silver
bullion reserves are not included in the earmarked funds.
15. INTRAGOVERNMENTAL COSTS AND EARNED REVENUE
Intragovernmental costs and earned revenue reflect transactions in which both the buyer and seller are
federal entities. Revenue with the public reflects transactions for goods or services with a non-federal
entity. The purpose for this classification is to enable the federal government to prepare consolidated
financial statements. The following table provides earned revenues, gross cost, and net program revenue:
(dollars in thousands)	        			                        2011			                    2010
Numismatic Production and Sales
Cost:
  Intragovernmental:
    Selling, General and Administrative			            $    23,863		              $      20,140
    Imputed Costs					                                      6,152		                      4,335
  Total Intragovernmental Costs			                         30,015		                     24,475
  Public:
    Cost of Goods Sold				                                3,912,375		                3,069,173
    Selling, General and Administrative			                   66,971		                   64,110
  Total Public Cost					                                  3,979,346		                3,133,283
Gross Cost					                                           4,009,361		                3,157,758
Revenue:
  Intragovernmental:
    Rent Revenues					                                     10,232		                  10,790
    Other Intragovernmental Revenues			                        65		                      65
  Total Intragovernmental Revenues			                      10,297		                  10,855
  Public						                                          4,168,297		               3,239,989
  Total Earned Revenue				                              4,178,594		               3,250,844
Net Program Cost (Revenue)				                        $ (169,233)		              $ (93,086)

						
Numismatic Production and Sales of Circulating Coins
Cost:
 Intragovernmental:
   Selling, General and Administrative			            $       166		               $          549
 Total Intragovernmental Costs			                            166		                          549
 Public:
   Cost of Goods Sold				                                   4,054		                      3,444
   Selling, General and Administrative			                     465		                      1,747
 Total Public Cost					                                     4,519		                      5,191
Gross Cost					                                             4,685		                      5,740
Revenue:
 Public						                                               4,685		                      5,740
 Total Earned Revenue				                                   4,685		                      5,740
Net Program Cost (Revenue)				                       $          –		              $           –




                                           44
						 2011			 2010
Circulating Production and Sales
Cost:
 Intragovernmental:
   Selling, General and Administrative			              $   9,546		 $  12,608
   Imputed Costs					                                      7,189		     9,844
 Total Intragovernmental Costs			                         16,735		    22,452
 Public:
   Cost of Goods Sold				                                334,222		   220,932
   Selling, General and Administrative			                 53,893		    65,559
   Other Costs and Expenses (Mutilated and Uncurrent)	    23,280		     8,414
 Total Public Cost					                                  411,395		   294,905
 Gross Cost					                                         428,130		   317,357
Revenue:
 Public						                                            428,130		   317,357
 Total Earned Revenue				                                428,130		   317,357
Net Program Cost					                                  $       –		 $       –

Net Program Cost (Revenue) Before Protection of Assets	   $   (169,233)		        $   (93,086)

Protection of Assets
 Public:
   Protection Cost					                                   $    41,570		          $    41,547
 Total Earned Revenue				                                 $         –		          $         3
 Net Cost of Protection of Assets			                      $    41,570		          $    41,544

 Net Cost (Revenue) from Operations			                    $   (127,663)		        $   (51,542)

16. EARNED REVENUE AND OTHER FINANCING SOURCE (SEIGNIORAGE)
The Statement of Net Cost reflects the earned revenue and corresponding gross costs for Circulating
Production and Sales and for Numismatic Production and Sales of Circulating Coins. Circulating
Production and Sales represents coin sales to the FRB, and Numismatic Production and Sales of
Circulating Coins represents sales of circulating coins to the public (i.e., numismatic customers).
SFFAS Number 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting, limits the amount of net program revenue from production of
circulating coins to the cost of metal, manufacturing and transportation. OMB Circular A-136 defines
the treatment of other financing sources on the Statement of Changes in Net Position, particularly as
it relates to seigniorage. Therefore, on the Statement of Net Cost, earned revenue is recognized only
to the extent of the gross cost of production. The difference between those costs and the face value of
the coin is an “Other Financing Source” referred to as seigniorage. Any revenue over face value for
circulating coins sold as numismatic items is considered earned revenue and included in the category
Numismatic Production and Sales on the Statement of Net Cost.
The following chart reflects the two components of the receipts from the sale of circulating coin – the
earned revenue from the Statement of Net Costs and Seigniorage from the Statement of Changes in Net
position for the year ended September 30:
(dollars in thousands)				                                 2011			                2010
Revenue-FRB					                                          $  428,130		           $  317,357
Seigniorage-FRB					                                         348,780		              300,887
Total Circulating Coins				                               $ 776,910		            $ 618,244

Revenue-with the public				                               $     4,685		          $     5,740
Seigniorage-with the public				                                 9,797		               11,927
Total Numismatic Sales of Circulating Coins		             $    14,482		          $    17,667
Total Seigniorage					                                    $   358,577		          $   312,814

                                              45
17. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED
The Mint receives apportionments of its resources from OMB. An apportionment is a plan approved
by OMB to spend funds as directed by law. All Mint obligations are classified as reimbursable, as they
are financed by offsetting collections received in return for goods and services provided. OMB usually
uses one of two categories to distribute budgetary resources. Category A apportionments distribute
budgetary resources by fiscal quarters. Category B apportionments typically distribute budgetary
resources by activities, projects, objects or a combination of these categories. The Mint has only
category B apportionments.
18. EXPLANATION OF DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY
RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting, requires an explanation of material differences between the
Statement of Budgetary Resources (SBR) and the related actual balances published in the Budget of
the United States Government (President’s Budget). The President’s Budget for fiscal year FY 2011 is
expected to be published in February 2012 and made available through OMB. Therefore, the analysis
presented here is for the prior year (FY 2010) “actual” figures published in the President’s budget
in February 2011. The following chart displays the comparison of the FY 2010 SBR and the actual
FY 2010 balances included in the FY 2012 President’s Budget.
(rounded to millions)					                       September 30, 2010
						 Statement of Budgetary	                                    President’s
						 Resources		Budget
United States Mint Public Enterprise Fund
Total Budgetary Resources				              3,782		                     3,782
Status of Budgetary Resources:
  Obligations Incurred				                 3,671		                     3,671
  Unobligated Balances-available			          111			                      111
Total Status of Budgetary Resources			    3,782			                     3,782
Net Outlays					                              85			                       85

19. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
The PEF statute establishes that all receipts from Mint operations and programs, including the
production and sale of numismatic items, the production and sale of circulating coinage, the protection
of government assets, and gifts and bequests of property, real or personal, shall be deposited into the
Mint PEF and shall be available without fiscal year limitations. Any amount that is in excess of the
amount required by the PEF shall be transferred to the Treasury for deposit as miscellaneous receipts.
At September 30, 2011 and 2010, the Mint transferred excess receipts to the Treasury General Fund
of $51 million and $388 million, respectively.
20. HEDGING PROGRAM
At September 30, 2011 and 2010, the market value of the silver sold to the trading partner and not
yet sold by the Mint and, therefore, not repurchased from the trading partner was $247.7 million and
$111.4 million respectively. In addition, the trading partner owed the Mint $4.3 million in unpaid
realized gains at September 30, 2011 and the Mint owed the trading partner $5.7 million in unpaid
realized losses at September 30, 2010. In FY 2011, the Mint recorded an unrealized loss of $710
thousand compared to an unrealized gain of $2.5 million in FY 2010.




                                           46
21. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
(dollars in thousands)				                               For The Years Ended September 30,
						 2011			 2010
Resources Used to Finance Activities:
  Budgetary Resources Obligated
    Obligations Incurred				                           $ 4,674,890		                $ 3,670,761
    Less: Spending Authority from
      Offsetting Collections and Recoveries		            5,027,991		                  3,549,070
  Net Obligations					                                    (353,101)		                    121,691
  Other Resources
    Transfers to the Treasury General Fund On-Budget	       (51,000)		                    (13,000)
    Transfers to the Treasury General Fund Off-Budget	            –		                   (375,000)
    Imputed Financing from Costs Absorbed by Others	         13,341		                      14,180
    Other Financing Sources (Seigniorage)		                358,577		                     312,814
  Net Other Resources Used to Finance Activities		         320,918		                      (61,006)
Total Resources Used to Finance Activities		                (32,183)		                     60,685

Resources Used to Finance Items Not Part
of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods,
    Services and Benefits Ordered but Not Yet Provided	         88,670		                  43,347
  Resources that Finance the Acquisition
    of Assets or Liquidation of Liabilities			                 463,062		                 370,845
  Other						                                                   (51,547)		                (14,593)
  Total Resources Used to Finance Items
    Not Part of the Net Cost of Operations			                   500,185		                 399,599
Total Resources Used to Finance the Net Cost of Operations     (532,368)		               (338,914)

Components not Requiring or Generating
Resources in the Current Period
 Depreciation and Amortization			                               29,491		                  32,665
 Revaluation of Assets				                                         870		                  (1,204)
 Other						                                                   374,344		                 255,911
Total Components not Requiring or Generating
 Resources in the Current Period			                             404,705		                287,372
Net Cost (Revenue) from Operations			                        $ (127,663)		           $   (51,542)

22. Undelivered Orders at the End of the Period
Budgetary resources obligated for undelivered orders as of September 30, 2011 and 2010 were
$242,636 and $139,762 respectively.




                                                47
Required Supplementary Information (Unaudited)
For the Years Ended September 30, 2011 and 2010

Introduction
This section provides the Required Supplemental Information as prescribed by the Office of Management and Budget
(OMB) Circular A-136, “Financial Reporting Requirements” and Statement of Federal Financial Accounting
Standards (SFFAS) #29 Heritage Assets and Stewardship Land.
HERITAGE ASSETS
The Mint is steward of a large, unique and diversified body of heritage assets that demonstrate the social, educational
and cultural heritage of the Mint. These items include a variety of rare and semi-precious coin collections and
historical artifacts, and are held at various Mint locations. Some of these items are placed in locked vaults within
the Mint, where access is limited to only special authorized personnel. Other items are on full display to the public,
requiring little if any authorization to view.
Included in the heritage assets are the buildings housing the Mint at Denver, West Point, San Francisco, and Fort
Knox. The Mint generally does not place a value on heritage assets, even though some of the coins and artifacts are
priceless. However, the assets are accounted for and controlled for protection and conservation purposes. Heritage
assets held by the Mint are generally in acceptable physical condition, and there is no deferred maintenance on the
Denver, West Point, San Francisco, and Fort Knox buildings.




                                                          48
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury

Deputy Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2011 and 2010 and the
related statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated December 2, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the United States Mint is responsible for establishing and maintaining effective
internal control. In planning and performing our fiscal year 2011 audit, we considered the design
effectiveness of the United States Mint’s internal control over financial reporting by obtaining an
understanding of the United States Mint’s internal control, determining whether internal controls had been
placed in operation, assessing control risk, and performing tests of controls as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of the United States Mint’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the United States
Mint’s internal control over financial reporting. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
                                                                 49


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified a deficiency in internal
control over financial reporting described in Exhibit I that we consider to be a significant deficiency in
internal control over financial reporting. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.

The United States Mint’s response to the finding identified in our audit is presented in Exhibit II. We did
not audit the United States Mint’s response and, accordingly, we express no opinion on it.

We noted certain additional matters that we have reported to management of the United States Mint in a
separate letter dated December 2, 2011.

This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




December 2, 2011




                                                     50
                                                                                                   Exhibit I

Improvements Needed Over Inventory

We noted the United States Mint did not fully recognize the cost of goods sold for the 2008 American
Buffalo Celebration Coin which were sold in fiscal years 2008 and 2009. For this program, the Mint
recognized the revenue for all units sold; however, the Mint did not recognize the cost of all units. The
cost of approximately $15.5 million for the units not recognized remained on the Headquarter’s general
ledger as work-in-process inventory, although the actual units of inventory were sold and delivered. Also
an annual physical inventory was not conducted at Headquarters.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, (revised December 31,
2004), Section II, Subsection C, Paragraph 1, states that control activities include policies, procedures and
mechanisms in place to help ensure that agency objectives are met. Several examples include: proper
segregation of duties (separate personnel with authority to authorize a transaction, process the transaction,
and review the transaction); physical controls over assets (limited access to inventories or equipment);
proper authorization; and appropriate documentation and access to documentation.

The United States Mint’s Standard Operating Procedures (SOP), titled Counting Inventory, states that
Headquarters [is to conduct] an Annual Physical Inventory for inventory under their control.

The United States Mint recorded an adjusting entry in fiscal year 2011 to properly account for this issue.

Recommendation: We recommend United States Mint management follow the Counting Inventory SOP,
and require at least an annual physical inventory held at Headquarters.




                                                     51
                                                                                          Exhibit II




                                         December 2, 2011



KPMG LLP
2001 M Street N.W.
Washington, DC 20036

Ladies and Gentlemen:

We have reviewed the fiscal year 2011 auditors’ report and are in substantial agreement with the
reported observations. The United States Mint recognizes the need for strong internal controls
and is taking corrective actions to address the noted deficiencies. We have made significant
progress toward resolving the reported issues and will continue to work with KPMG and the
Office of Inspector General in identifying the specific actions that will ensure we have taken
appropriate corrective action.

Sincerely,




David Motl
Acting Associate Director/Chief Financial Officer
United States Mint




                                               52
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Deputy Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2011 and 2010, and the
related statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated December 2, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the United States Mint is responsible for complying with laws, regulations, and
contracts applicable to the United States Mint. As part of obtaining reasonable assurance about whether the
United States Mint’s financial statements are free of material misstatement, we performed tests of the
United States Mint’s compliance with certain provisions of laws, regulations, and contracts, noncompliance
with which could have a direct and material effect on the determination of the financial statement amounts,
and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the United States Mint.
However, providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the United States Mint’s financial
management systems did not substantially comply with the (1) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government Standard
General Ledger at the transaction level.

                                                                53


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




December 2, 2011




                                                   54
Appendix I: FY 2011 Coin and Medal Products

2011 SEPTEMBER 11 NATIONAL MEDAL
Medal Released: June 20, 2011 (first shipments Sept. 1, 2011)
Mintage Limit: 2 million silver medals
Description: The 2011 September 11 National Medal was authorized by
the “National September 11 Memorial and Museum Commemorative Medal
Act,” signed into law on Aug. 6, 2010. It commemorates the 10th anniversary
of the terrorist attacks on the United States and the establishment of the
National September 11 Memorial and Museum at the World Trade Center.

2011 UNITED STATES ARMY COMMEMORATIVE
COIN PROGRAM
Coins Released: Jan. 31, 2011 (first shipments Feb. 28, 2011)
Mintage Limits: 100,000 gold, 500,000 silver, 750,000 clad
Description: The “United States Army Commemorative Coin Act,” signed
into law on Dec. 1, 2008, commemorates the founding of the United States
Army. Each coin design shows different aspects and eras of Army service.

2011 MEDAL OF HONOR COMMEMORATIVE COIN PROGRAM
Coins Released: Feb. 25, 2011 (first shipments April 25, 2011)
Mintage Limits: 100,000 gold, 500,000 silver
Description: The Medal of Honor Commemorative Coin Act of 2009 was
signed into law on Nov. 6, 2009. It commemorates the 1861 establishment
of the Medal of Honor, the highest award for valor in action against an
enemy force that can be bestowed upon an individual serving in the
U.S. Armed Forces.




                                                       55
MOUNT HOOD NATIONAL FOREST QUARTER – OREGON
Coin Released: Nov. 17, 2010
Description: Established as a national site on Sept. 28, 1893, Mount Hood
National Forest encompasses more than 1 million acres of mountains,
lakes and streams. The reverse design features Mount Hood with Lost Lake
in the foreground.

GETTYSBURG NATIONAL MILITARY PARK QUARTER –
PENNSYLVANIA
Coin Released: Jan. 27, 2011
Description: The Battle of Gettysburg was a turning point in the Civil War.
The battlefield was established as a national site on Feb. 11, 1895. The
reverse design depicts the 72nd Pennsylvania Infantry Monument, located
on the battle line of the Union Army at Cemetery Ridge.

GLACIER NATIONAL PARK QUARTER - MONTANA
Coin Released: April 4, 2011
Description: Established as a national reserve on Feb. 22, 1897, Glacier
National Park is named for its prominent glacier-carved terrain and remnant
glaciers descended from the ice age. The reverse design depicts a mountain
goat climbing near the northeast slope of Mount Reynolds.

OLYMPIC NATIONAL PARK QUARTER – WASHINGTON
Coin Released: June 13, 2011
Description: Established as a national site on Feb. 22, 1897, Olympic
National Park protects more than 70 miles of Pacific Ocean beaches and
Mount Olympus. The reverse design features a Roosevelt elk standing on a
gravel river bar of the Hoh River with Mount Olympus in the background.

VICKSBURG NATIONAL MILITARY PARK QUARTER –
MISSISSIPPI
Coin Released: Aug. 29, 2011
Description: The Vicksburg National Military Park commemorates the
battle of Vicksburg, Miss. The surrender of Vicksburg on July 4, 1863,
coupled with the fall of Port Hudson, La., split the South, giving control
of the Mississippi River to the North. Vicksburg was first established as a
national site on Feb. 21, 1899. The reverse design depicts the U.S.S. Cairo
on the Yazoo River as it was during the Civil War.




                                                         56
ABRAHAM LINCOLN PRESIDENTIAL $1 COIN –
16th PRESIDENT, 1861-1865
Coin Released: Nov. 18, 2010
Description: Abraham Lincoln served in the Illinois legislature and the
U.S. House of Representatives before becoming President of the United
States in 1861. While President, Lincoln issued the Emancipation
Proclamation, which abolished slavery. On Nov. 19, 1863, he delivered
the Gettysburg Address. On April 14, 1865, Lincoln was shot at Ford’s
Theatre in Washington, D.C., and died the next morning.

MARY TODD LINCOLN FIRST SPOUSE GOLD COIN
AND BRONZE MEDAL – FIRST LADY, 1861-1865
Coin and Medal Released: Dec. 2, 2010
Description: Devoted to the military men stationed in Washington, D.C.,
during the Civil War, Mary Todd Lincoln and her husband made regular
trips to encampments and local hospitals to visit the wounded and sick. The
gold coin and bronze medal reverse design depicts Mrs. Lincoln bringing
wounded Union soldiers flowers and books.

ANDREW JOHNSON PRESIDENTIAL $1 COIN –
17th PRESIDENT, 1865-1869
Coin Released: Feb. 17, 2011
Description: Andrew Johnson, a Democrat, was nominated by the
Republican party for Vice President. After President Lincoln’s death,
President Johnson proceeded with a moderate approach to Reconstruction.
Radical Republicans in Congress, however, placed southern states under
military rule. When Johnson allegedly violated the Tenure of Office Act,
the House of Representatives voted 11 articles of impeachment against
him. He was acquitted in the Senate by one vote. Johnson remained
politically active, later serving in the Senate – the only former President
to do so.

ELIZA JOHNSON FIRST SPOUSE GOLD COIN
AND BRONZE MEDAL – FIRST LADY, 1865-1869
Coin and Medal Released: May 5, 2011
Description: Eliza McCardle Johnson had a profound influence on the
informal education of the future President, encouraging him to join in local
debates to enhance his oratorical skills. During their final days in the White
House, the Johnsons celebrated the President’s 60th birthday with a ball to
which only children were invited. The medal reverse design depicts children
dancing and a Marine Band fiddler playing at the children’s ball.




                                                          57
ULYSSES S. GRANT PRESIDENTIAL $1 COIN –
18th PRESIDENT, 1869-1877
Coin Released: May 19, 2011
Description: Ulysses S. Grant was appointed general-in-chief of the Union
Army in March 1864. Grant was the Republican Party’s choice for President
in 1868. As President, he allowed radical Reconstruction to run its course in
the South. Under his administration, Yellowstone was established as the first
national park, and Congress passed a bill calling for equal pay for women
and men holding similar jobs in federal government agencies.

JULIA GRANT FIRST SPOUSE GOLD COIN
AND BRONZE MEDAL – FIRST LADY 1869-1877
Coin and Medal Released: June 23, 2011
Description: During the Civil War, Julia Dent Grant moved her home often
to be close to her husband while he commanded the Union forces. The
medal reverse design captures the courtship of a young Julia Dent and
Ulysses S. Grant as they ride horses at her family’s plantation, White Haven.

RUTHERFORD B. HAYES PRESIDENTIAL $1 COIN –
19th PRESIDENT, 1877-1881
Coin Released: Aug. 18, 2011
Description: Rutherford B. Hayes fought in the Civil War and was wounded
in action. While still in the Army, he was elected to serve in the House of
Representatives. Later, he served three terms as Ohio governor. By 1876,
he was the Republican candidate for President, winning by one vote in the
Electoral College despite losing the national popular vote. Hayes announced
in advance that he would serve only one term, and he retired to Ohio in 1881.

LUCY HAYES FIRST SPOUSE GOLD COIN
AND BRONZE MEDAL – FIRST LADY, 1877-1881
Coin and Medal Released: Sept. 1, 2011
Description: In 1878, President and Mrs. Hayes began the tradition of
hosting the Easter Egg Roll on the White House grounds after learning the
popular event would no longer be allowed to take place on U.S. Capitol
Building grounds. The reverse design depicts Lucy Hayes’s participation
in the first Easter Egg Roll held at the White House.




                                                         58
2011 AMERICAN EAGLE PLATINUM PROOF COIN – TO INSURE
DOMESTIC TRANQUILITY
Coin Released: May 26, 2011
Description: In 2009, the Mint introduced a new six-year platinum proof
coin program highlighting the Preamble to the U.S. Constitution. In 2011,
“To Insure Domestic Tranquility” was released. The reverse design features
the harvest goddess emerging from a field of wheat. She carries a stalk of
wheat in her left hand, and extends her right hand to a dove, representing
the fulfillment of tranquility. Designs for all six coins in this program are
inspired by narratives prepared by the Chief Justice of the United States on
the six principles embodied in the Preamble.

2011 NATIVE AMERICAN $1 COIN
Coin Released: Jan. 1, 2011
Description: The theme for the 2011 Native American $1 Coin is “Supreme
Sachem Ousamequin, Massasoit of the Great Wampanoag Nation Creates
Alliance with Settlers at Plymouth Bay (1621).” In 1621, Ousamequin, the
Massasoit (a title meaning head chief) of the Wampanoag Indians, made a
formal treaty with the English who settled in Plymouth, Mass. The reverse
design features the Supreme Sachem Ousamequin Massasoit and Governor
John Carver, symbolically offering the ceremonial peace pipe.




                                                         59
60
Connecting America through Coins
           www.usmint.gov
